<html>
<title> - MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES APPROPRIATIONS FOR 2017</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



 
     MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES 
                        APPROPRIATIONS FOR 2017

                              ----------           

                                         Friday, February 26, 2016.

           OVERSIGHT HEARING--QUALITY OF LIFE IN THE MILITARY

                               WITNESSES

SERGEANT MAJOR OF THE ARMY DANIEL A. DAILEY
MASTER CHIEF PETTY OFFICER OF THE NAVY MICHAEL D. STEVENS
SERGEANT MAJOR OF THE MARINE CORPS RONALD L. GREEN
CHIEF MASTER SERGEANT OF THE AIR FORCE JAMES A. CODY

                       Statement of Chairman Dent

    Mr. Dent [presiding]. Well, good morning. I welcome 
everyone to today's hearing on military quality of life--
service members. Today's hearing is on the quality of life for 
our enlisted soldiers, sailors, marines, airmen, and their 
families.
    I think the four men seated before us really do represent, 
the heart and the back bone of the United States armed forces, 
and we thank you for your presence.
    The four witnesses at the table are senior enlisted members 
of the respective branches. Members should know that we have 
roughly 120 years of combined military experience before us 
today, and two of our witnesses today were only on the job for 
a matter of days when they appeared before this subcommittee 
last year. And now they have gotten a year and a few days under 
their belt, so we welcome them back.
    And this hearing is just a great opportunity to identify 
areas where we can do more to help those who protect us and 
defend this Nation.
    I don't have anything else I would like to add at this 
moment except to recognize my friend and colleague, the ranking 
member, Mr. Bishop, for his opening remarks.

                   Statement of Ranking Member Bishop

    Mr. Bishop. Thank you very much, Mr. Chairman.
    And let me welcome these distinguished military career 
folks here. They are the folks that really, really take care of 
our soldiers, sailors, marines, airmen, and we appreciate you 
very, very much for what you do: Sergeant Major Dailey, 
sergeant major of the Army; Master Chief Petty Officer Stevens; 
Sergeant Major Green; and Chief Master Sergeant Cody of the Air 
Force.
    Let me give a special shout-out to Master Chief Petty 
Officer Michael Stevens and Chief Master Sergeant Cody. I know 
this is your last time coming before our subcommittee, and I 
want you to know that we appreciate your honest assessments 
regarding our enlisted personnel and what they face and wish 
you the very best in your next assignment or retirement, 
whichever it is.
    I will keep my remarks short so we can get directly to the 
hearing.
    I always look forward to this hearing because you give us 
the best picture of what is needed for those who are really on 
the front lines. We talk a lot about facilities, equipment, 
force structure, strategy, but it is the men and women like you 
that really make our military what it is today.
    I believe that our service members and the support of the 
family members, too, make our military great, and it is our 
responsibility to make sure that all of you--the active duty, 
Reserve personnel, and their families are taken care of. And I 
want to make sure that we are doing enough to help our service 
members and their families because the last thing they need to 
do when they are facing a deployment is worry about what is 
happening back home.
    In all of your testimonies you raised many issues that 
confront your services, such as family services, retention, 
readiness, and training. And I want you to use this as an 
opportunity to tell us what we have gotten right, what we need 
to improve to ease the burden that is placed on our service 
members and their families.
    So thank you for your service.
    And I yield back.
    Mr. Dent. Thank you, Mr. Bishop.
    And I would like to at least introduce our witnesses today.
    Starting from my right is Sergeant Major of the Army Dan 
Dailey. And most importantly, he is from Palmerton, 
Pennsylvania, just north of my hometown. And Sergeant Major 
Dailey is a returning witness. His wife Holly is also in 
attendance.
    Sergeant Major Dailey was sworn in as the 15th sergeant 
major on January 30, 2015; 27 years of service; enlisted in the 
Army in 1989, attended basic training and advanced individual 
training at Fort Benning, Georgia--place near and dear to your 
heart, Mr. Bishop.
    And Sergeant Major Dailey's awards include the Legion of 
Merit and a Bronze Star Medal of Valor.
    Thanks for being back here, Sergeant Major.
    Master Chief Petty Officer of the Navy Michael D. Stevens--
as Mr. Bishop said, this is his last appearance before us and 
we wish him all the best in his future endeavors, wherever that 
me be. And who knows, maybe Pennsylvania.
    Master Chief Stevens is a returning witness. His wife 
Theresa is also in attendance.
    And I just wanted to mention that he was appointed on 
September 28, 2012, becoming the 13th master chief petty 
officer; 33 years of service; entered the Navy straight from 
high school in 1983. Master Chief has served as wing command 
master chief for the largest helicopter wing in the U.S. Navy, 
most recently served as 16th fleet master chief for the U.S. 
Fleet Forces Command.
    Sergeant Major of the Marine Corps Ronald Green, who was I 
think 5 days into the job when he came before us last year. 
Sergeant Major Green is a returning witness.
    He assumed his current post as the 18th sergeant major of 
the Marine Corps on February 20, 2015; 31 years of service; he 
has served as drill sergeant and master drill sergeant at 
Parris Island.
    I pity those poor guys who had to deal with you. 
[Laughter.]
    But he served at two three-star commands, a rare 
distinction for rank. He served at Marine Corps Forces Europe 
and Africa and Stuttgart, Germany in 2010.
    And, of course, Chief Master Sergeant of the Air Force 
James Cody, and this is also his last appearance.
    And we appreciate your presence here. We always like to 
point out that he was well-trained. His wife is in attendance 
as well, and is too a retired Air Force chief with over 25 
years of service.
    Appointed in January 2013 as the 17th chief master 
sergeant; 32 years of service; entered the Air Force in 1984.
    His background includes various duties in air traffic 
control at the unit major command levels. He has served 
overseas in Germany, South Korea, Turkey, and deployed in 
support of Operations Southern Watch and Enduring Freedom.
    Thank you all for taking your time to be with us here 
today. Without objection, your written statements will be 
entered into the record, and please feel free to summarize your 
remarks in about 5 minutes each.
    So I guess we will start from right to left, starting with 
Sergeant Major Dailey. Thank you all for your statements.

                   Statement of Sergeant Major Dailey

    Sergeant Major Dailey. Chairman Dent, Ranking Member 
Bishop, distinguished members of this committee, I want to 
thank you on behalf of myself and my comrades for allowing us 
the opportunity to speak with you today.
    On behalf of more than 2 million members of our Army team 
and its leaders, I would like to recognize this committee for 
its continued support in defending and advancing all facets of 
Army quality of life. We are especially grateful for the $974 
million in fiscal year 2016 funding for military construction.
    These authorizations and appropriations resulted in 
tangible quality of life improvements, including the $19 
million Noncommissioned Officer Academy at Fort Drum, New York. 
This complex will provide the Army's NCOs a state-of-the-art 
facility to further develop the leadership skills and 
professional standards expected of our Army's young leaders.
    We aren't officially at war today. But right now as we 
stand, more than 186,000 of our soldiers are in support of our 
combatant commanders in over 140 countries. They are 
preventing, shaping, and winning for our Nation.
    Although our force is getting smaller, our mission has not 
changed. The Nation has asked our Army to perform a diverse 
number of missions over the last year, requiring a force 
prepared for anything anytime and anywhere.
    Maintaining our readiness, as the Army chief of staff has 
said, is our number one priority. And there is no other number 
one.
    We build readiness by filling the Army formations with 
soldiers of character, competence, and commitment--soldiers who 
are mentally, emotionally, and physically fit to withstand the 
rigors required of members of the profession of arms.
    In my opinion, we can be best supported with readiness by: 
keeping faith with our greatest asset, the American soldier; 
increasing and incentivizing deployability; maintaining 
standards and discipline; and expanding our professional 
development improvements. I hope to have the opportunity to 
share some of those initiatives with you today.
    Ladies and gentlemen, I do believe that our soldiers are 
the best-trained, best-manned, and best-equipped force in 
history. It is essential that we maintain this consistent and 
predictable resourcing to stay that way.
    We must remain committed to providing this great Nation the 
most capable and lethal force imaginable--not only to win, but 
to deter any potential adversary.
    But caring for soldiers, families, and our civilian 
workforce is nonnegotiable for me and the thousands of leaders 
that I represent here today. Caring for our people builds 
trust, and trust is built with honesty and predictability. This 
is the unwritten contract between the American people, her 
leaders, and the people of our Army.
    My biggest concern in the delicate balance of building a 
quality of life for our soldiers and families that enables 
readiness is how they will experience the cumulative effects of 
budgetary decisions designed to bring a cost savings to the 
military.
    Fiscal conservation is our duty as leaders in public 
service, but it is hard to explain program and compensation 
cuts to a young soldier and his or her family. Whether actual 
or perceived, these things affect how they view our decisions.
    I have visited dozens of installations throughout the last 
year and I have spoken to thousands of our soldiers and their 
families, and they ask me why. We have to ask ourselves, is the 
value of these cuts worth the potential impact to our soldiers 
and their families?
    They are still deploying and they are still separating from 
their families, and we have to be cognizant of the fact that 
chipping away at the Army family's wallet could violate the 
trust the soldier has in us. It could jeopardize their trust. 
And we expect them to be committed to the mission that we 
direct them to do, we owe it to them.
    Being good stewards of our Nation's fiscal resources does 
not mean that we should do so at the expense of our soldiers. 
We are asking to--for them to give their all. We have to keep 
faith with the men and women who make up our total Army family.
    With the continued support of this committee, trust can and 
will be sustained. These soldiers, our Army professionals who 
make up today's all-volunteer Army, stand ever ready and 
willing to answer the Nation's call because they believe in 
each other. They believe in you and they believe in me.
    We must ensure our actions and decisions always reinforce 
that trust. This committee's support, I am sure, will do just 
that.
    This we will defend.
    Ladies and gentlemen, thank you for your time and I 
appreciate your questions.
    [The information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]          
    
    
   
    
    Mr. Dent. Thank you, Sergeant Major Dailey.
    And, Master Chief Stevens.

                   Statement of Master Chief Stevens

    Master Chief Stevens. Good morning, Chairman Dent, Ranking 
Member Bishop, and distinguished members of this subcommittee. 
It is a great honor to be here with my wife Theresa and address 
you in my fourth year as the Master Chief Petty Officer of the 
Navy.
    There are currently over 600,000 active and Reserve sailors 
and civilians serving in our Navy today. Their commitment to 
our Navy and our Nation is a never-ending source of 
inspiration. Without our sailors' can-do spirit and determined 
initiative, our operational readiness simply could not exist.
    Our sailors and their families collectively make up our 
most critical weapon system--a weapon system that operates most 
effectively when individual and unit morale is high. I truly 
believe that if this weapon system is not operating at its 
highest proficiency, your Navy becomes far less--far less 
capable.
    We owe it to our sailors and their families to ensure they 
continue to be well prepared to safeguard our Nation. We owe it 
to them to provide them with education, training, and 
appropriate compensation for their service and sacrifice. We 
owe it to them to hold the line when budget pressures put their 
quality of life and quality of service at risk.
    Over the past 3 decades there have been significant 
improvements in pay raises, housing allowance, health care, and 
veterans' benefits, resulting in a quality of life that is 
commensurate with their service. Many of you have worked hard 
to get us where we are today, and it is my hope that your hard 
work will not be in vain.
    Although the nature of budgetary reform is to balance 
readiness with quality of life, sailors are apprehensive about 
actual and potential reductions regarding pay and compensation. 
Through the years, military and civilian leadership has worked 
hard to establish and maintain trust with our sailors. Now we 
have to work hard to preserve and nurture that trust.
    Outside military pay and compensation, one of my greatest 
concerns is single sailor housing. Although we monitor barrack 
safety and prioritize funds for facilities most in need, we are 
not recapitalizing unaccompanied housing at the rate in which 
it is degrading.
    As we prioritize military construction projects to enable 
operational readiness, we have difficulty meeting the 
requirements for infrastructure, such as barracks and support 
buildings. The necessary investment in shore infrastructure 
remains challenging, but it is important for us to remember 
that our sailors rely on these installations for operational 
support, training, and quality of life for them and their 
families.
    If we start to invest now in improvements in this area, the 
less costly it will be down the road. It is my hope that 
Congress continues to provide the needed relief without needing 
to move money out of operational readiness accounts in the 
future.
    Although these concerns exist, fleet manning remains 
healthy and continues to improve. Health care continues to be 
extremely important to our sailors and their families. Our 
stateside and overseas military treatment facilities are 
essential to ensuring our sailors and their families have 
access to comprehensive, high-quality health care services.
    Our family programs continue to provide fundamental support 
that our sailors require to succeed in their personal and 
professional lives. Our sailors and their families appreciate 
your support in this area and wanted you to know how important 
these programs are towards their total quality of life.
    When a sailor is deployed and the spouse has to work to 
help make ends meet, having a daycare with extended hours makes 
all the difference in the world to manage everyday life while 
apart. sailors that are deployed for 7 months at a time are 
more focused on the mission knowing that their spouse and 
families have help available if anything unplanned was to come 
up while they are away.
    Having resources such as an ombudsman or a counselor 
accessible to the spouse makes getting through a deployment 
more manageable and less stressful for both our sailors and 
their families.
    And for these benefits, we thank you. We can never take for 
granted the sacrifice that our sailors and their families make. 
It is absolutely critical to the future of our Nation's defense 
that we do everything in our power to hold the line and provide 
our sailors and their families with the best quality of life we 
can offer.
    On behalf of these amazing sailors and their families, I 
thank you. We thank you for the opportunity to address you 
today and very much look forward to answering your questions.
    [The information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         
    
   
    
    Mr. Dent. Thank you, Master Chief Stevens.
    Sergeant Major Green, you are recognized.

                   Statement of Sergeant Major Green

    Sergeant Major Green. Yes, sir.
    Chairman Dent, Ranking Member Bishop, and distinguished 
members of the committee, thank you for the opportunity to 
appear before you today and update you on the quality of life 
of your Marine Corps and our families.
    First, I would like to thank you for your fidelity to the 
United States Marine Corps. The commandant, General Neller, and 
I continue to travel around the globe visiting our marines and 
families, and the morale is high.
    The Corps continues to maintain its operational readiness 
and commitment to the Nation by remaining forward-deployed and 
ready to respond to crisis anywhere in the world without any 
hesitation or mental reservation. You and the American people 
expect marines to answer the call and to win battles.
    In 2015 your marines executed approximately 100 operations, 
20 amphibious operations, 140 security cooperation events, and 
160 major exercises. We have accomplished these requirements 
while sustaining a tenet of measured and responsible drawdown.
    We are keeping the faith with our marines by minimizing 
involuntary attrition and maximizing voluntary actions. The 
Corps has not seen significant issues with recruiting or 
retention and continues to attract and recruit the best and 
most qualified individuals.
    We will continue to maintain a force of the highest-quality 
people who are intelligent, physically fit, resilient, and 
disciplined. General Neller and I spent Thanksgiving and 
Christmas visiting our forward-deployed warriors, and they are 
doing a great job. You would be proud of them.
    There are presently over 33,000 marines deployed around the 
globe. And despite the drawdown in Iraq and Afghanistan, the 
enemy continues to try and impose their will and their way of 
life on our Nation. Your Corps continues to accomplish the 
mission by changing their minds or their zip codes.
    Our families remain resilient and committed to supporting 
the warfighters as they work to accomplish the mission of 
guarding the country and our way of life.
    The Corps recognizes that we have a drawdown and continue 
to shape our quality of life programs and reflect those 
changes. As we near our end-strength target rapidly, the 
funding levels continue to eat away at our readiness and force 
the commandant of the Marine Corps to accept risk in unit 
readiness, personal readiness, and family readiness.
    All three are tied directly to the quality of life. The 
Corps should not have to make decisions between quality of work 
and quality of life.
    The Marine Corps works hard every day to take the fight to 
the enemy and make the fight as unfair as possible.
    Thank you for the opportunity to appear before you this 
morning, and I welcome your questions.
    [The information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]          
    
   
    
    Mr. Dent. Thank you. Thank you, Sergeant Major Green.
    And we will go to Chief Master Sergeant Cody. You are 
recognized.

                Statement of Chief Master Sergeant Cody

    Chief Master Sergeant Cody. Chairman Dent, Ranking Member 
Bishop, and members of the subcommittee, thank you for the 
opportunity to be here today and for your interest in the 
quality of life of our service men and women.
    I sincerely appreciate the opportunity to represent 
America's airmen and their families. It is an honor to express 
their needs and offer appreciation for your support on their 
behalf.
    Chairman Dent, I appreciate you acknowledging Athena's 
service. She continues to serve, and certainly I wouldn't be 
able to do it without her.
    And I would also like to take a moment to have you 
recognize a brand new senior enlisted leader for our Air Force 
Reserve Command. Chief Master Sergeant Erika Kelly has just 
taken over in that position, so she is going to be a valuable 
asset to our team.
    Today your airmen serve in unprecedented times. After 25 
years of constant combat operations they face a dynamic, 
unpredictable future, and a increasing desire to rely on 
airpower. They serve in the smallest, oldest Air Force in our 
history but continue to provide the preponderance of combat 
force against our adversaries around the globe.
    The poignant words of the Air Force Chief of Staff, General 
Welsh, should not be lost on any of us: Quantity has a quality 
of its own.
    There is no doubt today's airmen are the most talented, 
educated, and experienced force our country has ever assembled. 
They are professional men and women who are proud to serve but 
remain concerned as fiscal restraints limit their capacity to 
accomplish the mission and erode a compensation they earn in 
service to our Nation.
    During my 3 years as Chief Master Sergeant of the Air 
Force, limited budgets have forced your Air Force to cut its 
manpower by nearly 24,000 airmen. However, combat operations 
around the globe have remained steady for our Air Force in some 
areas while escalating in others. As of this January there are 
24,000 airmen deployed worldwide and more than 205,000 airmen 
directly supporting combatant commanders every single day.
    In that same time period, diminished budgets have forced 
slowing of normal growth in compensation and have continually 
cut at our airmen's buying power. If the Budget Control Act is 
not repealed and current trends continue, our projections show 
that compensation for an average E-5 with dependents stationed 
in or near Washington, DC, will fall behind private sector pay 
in 2018 and behind increases in household expenses in 2021.
    As we continue to implement these reforms and measures, 
including changes to retirement, basic allowance for housing, 
TRICARE, and more, we must never lose sight of the full impact 
of our airmen's readiness and resilience as well as our ability 
to recruit and retain your all-volunteer professional force.
    The airmen who serve today do so freely, proudly, and 
voluntarily because they believe in what America stands for and 
are ready to defend its cause. But our Nation must honor that 
commitment by providing for them and their families.
    I believe you have had a chance to read my written 
statement, which I have submitted for the official record. It 
includes greater details on our efforts to invest in 
infrastructure and key family programs, though there is clearly 
more we could offer our airmen and families with a higher top-
line budget.
    It outlines recruiting and education initiatives, including 
our effort to develop a bachelor's degree program for enlisted 
airmen and other concerns of our airmen and families, such as 
recent proposals to eliminate basic allowance for housing for 
married couples and airmen who choose to live together.
    I would like to add again for the record that I strongly 
oppose any such proposal, as it penalizes a military member. 
Basic allowance for housing is an individual entitlement that 
comes with military service and it should not be taken away for 
deciding to marry or live with another brave volunteer.
    I thank you again for the opportunity to provide insight 
into the quality of life of our airmen. I appreciate your 
continued support for our brave airmen and their supportive 
families and for your commitment to protect the quality of life 
initiatives they need to confidently defend our Nation.
    Our airmen are counting on each of you to lead our Nation 
and ensure we have the resources to remain the world's greatest 
air force.
    I look forward to answering your questions.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]          
    
    
    
    Mr. Dent. Thank you, Chief Master Sergeant.

                        QUALITY OF LIFE CONCERNS

    We always have one perennial question at this hearing, and 
it is what would you say are the top three quality of life 
concerns of enlisted personnel in your service branch? And I 
know in the past we have talked a lot about housing, barracks, 
child care centers, health care, wounded warrior care, dwell 
time. I am just curious to see if any of the priorities have 
shifted.
    And maybe we will start with the answers from left to 
right. We will start with Chief Master Sergeant Cody and move 
in the other direction.
    Chief Master Sergeant Cody. So, Chairman Dent, thank you.
    I think number one on the concern area for our airmen and 
their families right now is compensation. It dominates almost 
every conversation we have with them when we visit in the fact 
that they see the slowing of their growth and the reduction in 
their buying power. And there is nothing in the foreseeable 
future that would indicate to them that that is going to stop.
    So as they balance their ability to continue to serve their 
Nation as a family, that is a major concern. They worry about 
the impact on readiness and exactly whether we will have the 
resources to continue to do what we are being asked to do.
    As I expressed in my opening comments, our real demand 
signal for airpower has not diminished. Arguably, it has 
increased while the size of our force has significantly 
decreased over this past 25 years. So that, you know, levies a 
lot on them.
    And then the things that you mentioned still remain a 
concern. Adequate child care, housing are major concerns to 
them as they are moved around the globe, and having access to 
those resources are important.
    Mr. Dent. Sergeant Major Green.
    Sergeant Major Green. Yes, sir. Sir, the most important 
things to the marines and families--as the commandant and I 
travel around. The number one thing--question that is being 
asked right now is the blended retirement system, because they 
understand the system that we are on sitting at this table, but 
they don't fully understand what is going to be in the future 
for them.
    The marines that are in now will have a choice--most of 
them will have a choice, either one system or the other. And 
January 1, 2018 the system is supposed to, you know, be the 
system that we are on from then on. And I know we are pedaling 
away trying to get that information out there, but it is very 
important. It is absolutely important as we change the system 
to something we have no control over.
    And that ship will take a long time to turn if we get it 
wrong. For everybody that is going to retire under that new 
system, that is a question that we are really trying to answer 
for them.
    The commandant has an unpaid priorty list. Barracks is a 
part of that, structures--there are 24-hour gyms, all the 
quality of life programs that are challenged by readiness. 
Because I continuously say, you know, you can't separate unit 
readiness, personal readiness, and family readiness.
    So the budget that we have been handed does not support 
everything that is in the backpack. It just doesn't. It just 
doesn't.
    And we must make A's on the battlefield. We have to make 
A's on the battlefield.
    So that leaves the commandant with some challenges with 
quality of life programs: child care, Basic Allowance for 
Housing minus one. You know, we understand that 61 percent of 
our $23.4 billion go toward paying the warriors and supporting 
all the benefits, and there is only $9 billion to do everything 
else--operations, modernization, research, technology. All 
those things we look at holistically. We look at holistically, 
sir.
    And the $1.2 billion that is lost from the budget of last 
year to this year, it affects all quality of life in the Marine 
Corps.
    Yes, sir.
    Mr. Dent. Master Chief.
    Master Chief Stevens. Well number one, I believe, Mr. 
Chairman, is the resources to do their job. We call that 
quality of work--having the parts, the tools, the right 
weapons, the systems that are necessary to effectively carry 
out their mission.
    So we are doing a pretty good job of that but we are having 
to move some monies around to make that happen so we are 
assuming risk in areas like quality of life, understanding that 
that is necessary.
    Number 2 is this potential or this discussion that we have 
been having for the last 3 years on pay and compensation. Some 
of it has occurred and some of it has not.
    But in the minds of sailors and their families when I go 
out and talk to them, if this discussion is happening at very 
senior levels they feel that it is just a matter of time before 
it actually occurs. So there is the perceived and then there is 
the actual, and it creates a level of anxiety that is not 
healthy for the force. So that would be number two.
    Number 3, as I mentioned in my oral statement, is our 
inability to keep up with our shore infrastructure repairs, 
such as barracks and work facilities and things like that. In 
order to ensure that we are meeting a--the mandate of what I 
identified as number one, which is quality of work, we are 
having to move monies out of these areas so that they can do 
the mission.
    It is not something that is in the spotlight. You know, 
shore infrastructure is not in the spotlight so it doesn't get 
a lot of attention. But one of these days we are going to wake 
up and we are going to realize that we have got a disaster out 
there and we have got more to do than we have got money to do 
it with. So I just caution us to not take our eye off the shore 
infrastructure ball.
    Thank you.
    Sergeant Major Dailey. Chairman Dent, the Army's concerns 
are aligned with the priorities of the chief staff of the Army, 
and the reason why is because that is where we need to always 
maintain our focus.
    Number 1 is the total force readiness. Today I am 
represented not just by myself but the National Guard sergeant 
major, Sergeant Major Brunk Conley; and Command Sergeant Major 
Jim Wills, from the Army Reserve.
    And as we draw our Army to a historic low, just 980,000 in 
2018, readiness will always be our number one concern. And that 
is where we need to focus our attention because we do need 
predictable resourcing in order to make sure that our soldiers 
are prepared to do the mission we ask them to do.
    Number 2 would be the future of the force. We have got to 
look beyond the next few years and we have to look out many 
years. You have heard the secretary--the chief and the 
secretary of defense say that, and that is true.
    We have potential adversaries out there that we have to 
maintain focus on, and the future of the force requires, again, 
consistent and reliable resourcing in order to make sure that 
we stay well above the pace of our adversaries.
    And then our third priority, which is in line with the 
chief's priorities, is our soldiers and families. They are our 
Army.
    I am represented here today by my wife, but she also is a 
representation of the--part of the 2 million-person team that 
makes up the Army. It is not just soldiers, but it is families 
and our great civilian leaders, and they trust us that we will 
maintain pace with the resourcing we need to be able to make 
sure that they can take care of their families while our 
soldiers are doing the things that we ask them to do.
    I share similar concerns with each one of my senior 
enlisted advisors to my right, is that our soldiers aren't 
asking for much. We just need to be able to find them the 
necessary resources they need to accomplish their mission.
    Mr. Dent. Thank you, Sergeant Major.
    At this time I will recognize the ranking member for his 
questions.

                                BENEFITS

    Mr. Bishop. Thank you very much, Mr. Chairman.
    I appreciate very much your comments about your priorities, 
but whenever I meet with service members and military families 
they inevitably mention being concerned about the changes to 
their benefits.
    So I just want to ask each of you, has the continuing 
discussion over the changing military benefits impacted morale? 
And what are you really hearing from your soldiers, marines, 
sailors, and airmen?
    And what factors should we be considering as this issue 
continues to move forward? Because I know that as I--I happen 
to co-chair the Congressional Military Family Caucus, and these 
are issues that families are talking about, the--erosion of 
benefits and, quote: ``perks.'' How is that impacting and how 
do you predict it will further impact recruitment, retention, 
and morale?
    Each service member, with the changes proposed in the 
retirement package, is going to have to assume a great deal of 
responsibility for planning for his or her retirement--making 
investment selections, choose their monthly contribution 
percentage. And that is going to require a great deal of 
financial literacy and training on the part of the various 
services.

                 FINANCIAL LITERACY FOR SERVICE MEMBERS

    So in addition to the first question I asked, I would like 
for you to describe, each of you, what your services are doing 
at this point to implement the requirement for creating the 
necessary financial literacy for the service members and their 
families.
    Chief Master Sergeant Cody. I can go first, Congressman 
Bishop. I think we are actually all part of--all the services 
are part of a working group right now where we are trying to 
figure out exactly how we are going to do that continuum of 
financial education.
    I think all the services do some financial counseling 
today, but it is in a much--very--it is in a different context 
completely--basically how do you not spend more money than you 
have today and live within a budget, not how do you plan for 
the future. And I think you eloquently kind of identified what 
our real challenge is when you think about the preponderance of 
our force and where they are coming into the military and what 
their level of education would be, and how do we make sure we 
get that right up front.
    I think the working group is addressing all of the concerns 
that you kind of laid out. I think it is too early to say what 
we will be then able to do, right? You take all those 
recommendations. We will see how you would execute that 
throughout the continuum of service in our military to at least 
give the best opportunity for our service members to make the 
right type of choices.
    But as you kind of state, choices are just that. Some 
people will make good ones; some people will likely not make 
good ones, and that could end up in the end having a 
detrimental effect on what their retirement would actually be 
worth. So I think that is right.
    And again, I think you hit it. That is why I brought it up 
as the number one concern I hear about compensation and eroding 
growth.
    We shouldn't shy away from the conversation. It is going to 
and is having an impact on retention.
    Mr. Bishop. The recruitment, retention, and morale.

                   RECRUITMENT, RETENTION AND MORALE

    Chief Master Sergeant Cody. Yes. So the morale is tied to 
retention, I think. You know, people have low morale because 
they don't feel they are being adequately compensated or they 
think that they are not going to be adequately compensated. And 
we are asking their families to sacrifice in that same vein, 
right?
    We talk a lot about the spouses and their employment. That 
goes to overall income in the household, how we move our folks 
around and the things that we ask them to do, so they are 
taking deductions there in many, many cases. And then, okay, we 
tell him we are not going to grow your pay at the same rate 
that it would normally grow or the law allowed for. All of that 
is a factor.
    Do I think it impacts recruitment. It is tough to tell 
because we are doing okay with recruitment also, but you have 
to pay attention.
    The fact is, though, a lot of those people that serve are 
our best recruiters. If they are not talking to people about 
the advantage of service and the overall package and how this 
is a great way of life and a good thing to do for your Nation, 
it has a negative impact I think.
    Again, we are doing okay today. It is hard to say long-term 
what that will have for impact.
    Mr. Bishop. Sergeant Major Green.
    Sergeant Major Green. Yes, sir.
    First morale, sir. I alluded to, you know, the three types 
of readiness: unit, personal, and family. For marines, marines 
want to deploy. They want to be on the side of contingency or 
crisis.
    You know, when they can't deploy the morale begins to be 
low because the budget cuts that we are facing, as I alluded to 
earlier, the commandant and having to make choices about 
ranges, training areas, the technology and resources. Because 
the marines want to know when we go to the fight, like I said 
earlier, there is no fair fight. There is no fair fight. They 
want to make it as unfair as possible.
    And when we have to take cuts in modernization; equipment 
can't be reset, refurbished; can't sustain the barracks, that 
is a draw on personal morale. It is. It is. And we owe them the 
very best.
    Recruiting? Recruiting, like the Air Force, it is great 
right now. We want to make sure it stays that way, because we 
can look back, you know, pre-9/11. We put a lot of money into 
the war, lot of lives lost, lot of warriors come back, families 
torn apart and everything.
    Just want to make sure that you know all we have 
accomplished over the last 14 and 15 years. We are not trying 
to go back with a budget to pre-9/11, because nothing to date 
costs what it did pre-9/11--nothing. Some things have doubled 
and tripled, and that needs to be recognized.
    And there are warriors out there and family members who 
absolutely need health services. Health services. And, you 
know, to see the budget cut--and our Wounded Warrior Regiment, 
we are going to keep the faith with our wounded warriors and 
their families first. We are going to do that.
    But what are we not going to do? What are we not going to 
do?
    We want to make sure we are retaining--you talk about 
retention--we are retaining the most qualified marine, not just 
marines. We want to make sure that the marines--we put out--
every year, sir, one out of four marines that came in 4 years 
ago will leave the Marine Corps. We are only going to keep one 
out of four. Want to make sure we have a choice to keep the 
best of the four, the most qualified marine.
    Thank you, sir.
    Yes, sir. That was it, sir. Yes, sir.
    Mr. Dent. Thank you.
    At this time I would like to recognize Mr. Valadao for 5 
minutes.

                   TRANSITION AND LIFE AFTER SERVICE

    Mr. Valadao. Thank you, Chairman.
    Thank you, gentlemen, for your time today. And I don't want 
to change the subject too much because of--obviously 
compensation is something that plays a huge role in this, but 
there is something that did come up quite a bit on my trip to 
the USS Ronald Reagan and spent some time with our sailors, and 
it has to do with their life after service and training, job 
opportunities. And I know that was mentioned a little bit with 
some of the things that Chief Master Sergeant Cody mentioned in 
his comments.
    But I would like to ask Master Chief Petty Officer, can you 
discuss the Transition GPS as well as how you see opportunities 
to better help out in the transition process and hopefully 
lower the unemployment rates for post-9/11 veterans?
    Master Chief Stevens. The current transition assistance 
program, Goals Plans Success, is far better than what we have 
had in the past. I have personally had the opportunity to 
attend it a few months back.
    It still needs some work, but the good news is we recognize 
that through course and class surveys, and each time they go 
back and make the necessary adjustments for this process to get 
better. We call it the spiral concept--you learn as you go, and 
as long as you are making those adjustments based on what you 
are learning then you will be better in the end.
    What I would really like to focus on--and I would ask that 
we give this serious consideration--is we need to do a better 
job of credentialing across the services. It is something that 
I think I have mentioned or we have talked about for 4 years 
now.
    It is very difficult, I understand, because there are 
federal credentials; there is state and local credentialing. 
And it can become difficult, and there is a lot of bureaucracy 
behind it.
    But if we could find a way across the department and across 
the Capitol Hill to come to some agreement where we could at 
least tackle some of these credentialing issues in the macro, 
because what I will--what I would recognize is the Army will be 
doing something, the Air Force is doing something, the Navy and 
the Marine Corps, but we are not doing much together as a 
department.
    So if we could do a better job with that I believe that 
might--makes our service members far more marketable when they 
go out into the civilian sector and into industry. Because 
oftentimes that is what they want to see--what are, you know, 
what are your credentials?
    And these service members have the experience and the 
knowledge and the know-how, but it doesn't always translate to 
civilian credentialing, and in order for it to happen, many 
times they want that service member to go back through the very 
same training that they have already received and have the 
practical job application experience that they already have. 
And it is money out of the G.I. Bill; it is money out of their 
pockets; it is time.
    You know, when they get out of the service they need to go 
to work. They got families to support and they don't always 
have time to spend another 2 years in school working part-time.
    I really believe we can do a better job. I just haven't 
seen a concerted effort to tackle credentialing.
    We are doing a pretty good job in the education piece, but 
not a really good job in the credentialing piece.
    Mr. Valadao. Would any of the other three like to add to 
that?
    Sergeant Major Dailey. I would, sir, if I could, 
Congressman. And again, thanks for the opportunity to address 
this issue because this is something the Army has invested 
heavily in for the last several years, and as MCPON Stevens 
says, we are very passionate about.
    We have made great strides. The Army has become 88 percent 
compliant with the VOW Act in the last 3 years and we have had 
great help from Congress, and making great strides with regards 
to credentialing and helping our great communities recognize 
the value of our service member--men and women that leave our 
service.
    But I agree with my counterpart. There is a lot more that 
we can do.
    But as a result of our efforts together, we have seen some 
great improvement. Since 2012 to 2015 the Army alone has 
reduced its nonemployment compensation from over $512 million 
down to $250 million, so that is a tangible result of the 
amount of result that we can receive from just small inputs to 
this.
    And I agree with MCPON Stevens. An area that we can advance 
this even further and reduce that $250 million down even more 
with a small investment in things like credentialing, ideas 
that we have to look outside the scope of what we do now.
    We gotta open our aperture on things like tuition 
assistance and allow our young men and women who deserve those 
credentials--the great skills that they hone while they are 
soldiers, sailors, airmen, and marines can be added upon with 
these credentials and they will be more valued service members 
when they transition, become soldiers for life in the future.
    And it is a small investment. A lot of times these 
credentials cost anywhere from $150 to $500. And there is no 
reason that we can't invest in them, because we have proven 
that investing in them now is a great investment for us in the 
future.
    Mr. Valadao. Thank you.
    I think my time is up.
    Mr. Dent. Thank you.
    At this time I would like to recognize Mr. Farr, for 5 
minutes.
    Mr. Farr. Thank you very much, Mr. Chairman.
    I am very interested in this dialogue on compensation, 
which you indicate is really a high priority, with low morale. 
And I really do think we have to have a national dialogue on it 
because I think what--and I wonder if you have the tools to 
respond to the military families and sort of put that into 
comparison.
    Because what I find is that we are sort of the--you know, 
everybody who is--in my area it is livable wage, can't afford--
minimum wage in California is way ahead of the rest of the 
country. You are speaking to a Congress that won't improve the 
minimum wage in America. It ought to be $15 an hour to survive.
    But when you also put it in context, I can't believe that 
the private sector could really lure away people. I mean, you 
have got--and we are talking about it. We have got a lot of 
benefits here.
    The private sector doesn't offer the child care provisions 
that you do. The private sector doesn't offer free access to 
clinics for uniformed personnel or a TRICARE kind of program 
for spouses and children, certainly nothing like a welfare 
morale account that soldiers could take advantage of for 
discounts.
    I mean, I am totally for you, but I don't--I think that it 
is unfair for somebody to say it is just not enough. I mean, 
Congress members haven't had a COLA--not a COLA--in 10 years. 
Talk about the morale here on, you know, salaries.
    And our retirement--I am going to retire after 22--26 years 
of Federal service and the retirement is $60,000. People think 
we make tons of money. It is not a lot.
    And so I think that--but on the other hand, when we go to 
recruit for people in our offices, during the boom nobody 
wanted to work for the Federal Government because the salaries 
were so low; but now people are lining up for the jobs. 
Salaries are the same, but the benefits that the government 
pays are so much better, so--particularly for working moms, 
they love the federal job.
    I wish we would put this into a real national context 
because I think the anger out there the voters are expressing, 
sort of hating government, is because they don't understand the 
pros and cons here of what it is. That is just my opinion.
    I think we ought to put it into context, because if any 
soldier comes to me and says, ``You know, I think we--that you 
guys are shortchanging us,'' I will say, ``Yes, we are not 
doing enough. On the other hand, you are not going to get a 
better benefit going and working for IBM.''
    Now, the question I really wanted to get to was I would 
like to help you in your professionalization of enlisted 
personnel. And, you know, I represent the Defense Language 
Institute and I am very interested in your concepts or your 
ideas on asymmetrical threats of--now is the time when we 
really have to understand the languages and, more importantly, 
the cultures of other countries. And should we be allowing the 
senior enlisteds into programs like--into the Naval 
Postgraduate School, which is usually an officer candidate 
school, or AFIT, or DLI--Defense Language Institute, for those 
kinds of training--professional training in languages and 
culture?
    Chief Master Sergeant Cody. Congressman Farr, if I could, 
I----

                      BASIC ALLOWANCE FOR HOUSING

    Mr. Farr. One last question--I just want to throw this out 
there for staff and everybody. The discussion here about 
lowering the BAH? You know, we entered into contracts with the 
private sector to build all the community residential housing 
and that contract promised that contractor for 50 years that 
they would be able to collect the BAH, and no one told them, 
``Hey, we are going to be changing that formula.'' What is that 
going to do to the----
    Chief Master Sergeant Cody. Puts it at risk.
    Mr. Farr. Yes.
    Chief Master Sergeant Cody. Significant risk to those 
programs.
    Mr. Farr. Well, aren't there contractual obligations there 
that can't be violated?
    Chief Master Sergeant Cody. They will get their money. The 
problem is they won't recapitalize as necessary. That is the 
way the contracts were written.
    So the way it is written and the structure of it, there is 
a built-in amount of that BAH that goes to recapitalization. 
That is exactly where they will take it.
    They will sustain their ability to fulfill, you know, their 
obligations to their employees and their investors and 
everything like that, but it will in turn not be able to 
sustain a 50-year program because the recapitalization won't 
take place. That is at least how we are being--you know, as we 
had the dialogue with them with these discussions.
    Mr. Farr. Mr. Chairman, we ought to just take that issue 
and try to get the BAH to move because it is going to require 
billions of dollars.
    Chief Master Sergeant Cody. If I could respond to your 
comment, sir, and then I will certainly agree with you about 
what you are talking about the opportunities for education and 
language-enabled airmen, specifically for my thing.
    But I think you are absolutely right, we need to have this 
conversation about compensation about those that serve their 
country. But let's have the real conversation on what we are 
asking them to do. Because we are not asking everybody at IBM 
to travel the globe and put themselves in harm's way and come 
back a different person for the rest of their life and their 
family to have to contend with that.
    If we want to have the real conversation, let's have the 
real conversation and not just try to arbitrarily, you know, 
correlate their service, what they do for their Nation, to what 
anybody else does for our Nation. This is unique. It is less 
than 1 percent of the American population that serves their 
country and is willing to do what they do.
    So fair and appropriate compensation is the right 
conversation. What that is we do have to decide.
    I think where we have this conversation and where we 
struggle in talking to them is that they committed to this. You 
walk in and you--just like you talked, you walked into Congress 
knowing this is what it was going to look like. Okay. I make 
that commitment; that is the organization I am going to be part 
of.
    You start changing that, well now it is an appropriate 
conversation to say, ``What did I commit to? Is that really 
right?'' And our Nation can't afford to have these folks walk 
away, after the investment that we put into them, that the 
country puts into them to be capable airmen.
    So I think it is right to have the conversations, but in 
the right context also of what we are asking them to do.
    You couldn't be more appropriate, and we are trying to do 
this in the Air Force. So we are sending senior enlisted to 
language-enabled programs. We have them embedded in the Air 
Force Institute of Technology (AFIT).
    We have talked about this over the years as we have come 
before your committee, so I really appreciate your continued 
support and emphasis on the value of that and creating a more 
capable service man or woman to be able to do what our Nation 
is definitely asking them to do.
    Mr. Dent. I need to recognize at this time Mr. Jolly for 5 
minutes.
    Mr. Jolly. Thank you, Mr. Chairman.
    Chief Cody, thank you for that explanation. I appreciate 
that.
    Sergeant Major Dailey, I want to follow up on a 
conversation Mr. Valadao had. You have been very gracious in 
working with me on this credentialing issue, and I think the 
panel would benefit a little bit from further conversation 
about this.

                   ARMY UNIVERSITY AND CREDENTIALING

    Sergeant Dailey hosted a CODEL that I was able to lead with 
a lot of our state legislators and our state regulators to 
identify what the state of Florida could do differently to 
begin to accept the credentials within the state and create 
this more seamless transition.
    As part of that, I learned a little bit about what you are 
doing with Army University. Can you share a little bit about 
how Army University is going to support, ultimately, this more 
seamless transition of credentialing from in-service to 
separation?
    Sergeant Major Dailey. Absolutely. First I would like to 
acknowledge, sir, the--thank you for your support on the CODEL 
and for championing our credentialing efforts. And I mean that. 
It really helps.
    And I would invite anyone else out to come see the 
Herculean efforts that our soldiers and our transition 
professionals are doing at each one of our installations.
    But I would absolutely like to highlight our efforts of the 
Army University.
    So we believe that our Nation gives our men and women the 
best-quality training and experience they need to fight and win 
our Nation's wars. We also believe those--that training and 
education aligns very closely with what our Nation needs in 
technical fields.
    So for 240 years we have done just that. We have trained 
and readied our men and women to win, and we have given them 
skills at the cost of our taxpayers.
    But we can do a better job, because we owe it to them, 
soldiers for life, to be able to transition them to civilian 
service because--back to civilian service so they can be valued 
members of their communities.
    And it is at very low cost, as I mentioned before. It is a 
very small investment for a very large return--not just for the 
military, not just for not paying unemployment compensation, 
but back to the communities they will go into where they will 
become good citizens, taxpayers contributing to the community 
and valuing on the things that we have already paid for.
    Just this year alone the United States Army has 
credentialed over 30,000 soldiers with the efforts from the 
help of this Congress and the efforts internally to the Army. 
But as I mentioned before, small investment. Opening up the 
aperture for things like tuition assistance to allow them to 
use those great gifts from our taxpayers to find credentialing 
opportunities is an inexpensive way to continue to find value 
for our young men and women as they leave the service.
    Mr. Jolly. But allows them to essentially be recognized 
with credit for some of the performance and the trade skills 
that they have developed while in service. It now credentials 
them in a way that can harmonize with outside credentialing 
agencies. And we are still getting there, but that is the 
direction we are going. Is that right?
    Sergeant Major Dailey. Absolutely, Congressman Jolly.
    Mr. Jolly. I would share with the panel our Florida 
delegation learned a lot from something the North Carolina 
legislature actually enacted at the state level to help 
streamline this. As a result, in Tallahassee this session there 
is now legislation moving through at our state level to begin 
to accept and accommodate more of the in-service credentials 
for soldiers that separate.
    So I appreciate that. Anything this committee can do to 
help, certainly we stand ready.

                        NON-DEPLOYABLE SOLDIERS

    Another question for you: In your testimony you state that 
there are nearly 100,000 soldiers who are unable to deploy and 
that approximately 80 percent of these soldiers are not able to 
deploy because of medical issues. In the context of a force 
drawdown to an active duty force of 450,000 and perhaps total 
force of 980,000 I believe is the number, 100,000 soldiers 
being termed ``non-deployable,'' what is that impact on our 
readiness and is that an issue that we need to be prepared to 
begin to address?
    Sergeant Major Dailey. Congressman, absolutely. And that 
number does represent the total force, 980,000----
    Mr. Jolly. Right.
    Sergeant Major Dailey [continuing]. The active force, the 
National Guard, and Reserve.
    We have done a lot of things over several years to take 
care of our wounded warriors and soldiers. And as a result of 
that, we have, I think we have told our Nation that we 
represent our young men and women, and we will represent them 
for life if they enter this service.
    But we do have to be cognizant of the fact that this takes 
a toll on our readiness, as you explained, sir. So we are 
working initiatives right now to ensure that each one of our 
soldiers, as we draw down to the historic lows that you 
mentioned, sir--450,000 from an active component and 980,000 as 
a total force--to ensure that each one of the men and women 
that we remain on active duty can and are able to fight and win 
this Nation's wars.
    Mr. Jolly. And so that would mean addressing the current 
population of 100,000 that are non-deployable.
    Sergeant Major Dailey. It would, sir. Yes, sir.
    Mr. Jolly. OK.
    Sergeant Major Dailey. And we currently are doing that, I 
can assure you, sir.
    Mr. Jolly. OK.
    Sergeant Major Dailey. Each one of those soldiers, I can 
assure you, will be taken care of. This is by no means any way 
to not--say we are not going to take care of our soldiers.
    Mr. Jolly. OK.
    Sergeant Major Dailey. We are going to give them the 
appropriate care they need, but we do have to come to the 
understanding that it is time to transition into soldiers for 
life.
    Mr. Jolly. OK. Very good.
    No further questions. Thank you, Mr. Chairman.
    Mr. Dent. Recognize Mr. Price at this time, for 5 minutes.
    Mr. Price. Thank you, Mr. Chairman.
    I, too, want to follow up on some of the implications of 
the budget difficulties we have heard discussed very 
consistently today and the drawdown that we are anticipating. 
But I think it needs to be said that these budget woes are 
created by us. It is not like they were handed down from above.
    It is a very similar account to what we heard earlier this 
week in the Transportation and Housing subcommittee. But we 
passed the Budget Control Act. We passed sequestration in this 
body, and because we couldn't get a budget agreement 
sequestration kicked in. We have patched it for 2 years but we 
have not fixed it.
    And the irony is with all this--with this--all these budget 
woes, with all of this we are not addressing the real drivers 
of the deficit. So at the end of the day, for all of this 
cutting in both the domestic and military budgets, we are not 
addressing entitlement spending, we are not addressing tax 
expenditures.
    And I would think the lesson of history is pretty clear 
that you are not going to get ahold of your fiscal future 
unless you address those two elements of the budget. That is 
totally left out of our calculations.
    So we need a comprehensive budget agreement. Why is that so 
hard to figure out?
    We had one in 1990 on a bipartisan basis; we had one in 
1993, Democratic heavy lifting alone. The result of all that: 4 
years of balanced budgets; $400 billion of the national debt 
paid off; the kind of investments you are talking about rather 
robustly funded, and the same on the domestic side.
    Now I am not saying those agreements were politically 
popular; in fact, they were wildly unpopular--something for 
everybody to dislike. They included tax increases. They 
included entitlement cuts as well as controls on appropriated 
spending.
    But it worked: 4 years of balanced budgets and a roaring 
economy.
    We simply have not achieved that here because of the 
ideology that has taken hold of this institution. But we are 
not going to solve these budget woes otherwise. So we kind of 
dance around it, but that, I think, is the fact.
    And I just hope in the next administration, whoever it is, 
whatever it is, that we will revisit this need for a grand 
bargain because until we do that, this is going to continue to 
be what we face, and patching it up isn't sufficient.
    I took more time than I meant, but let me just ask about--
and I am following up here on the last member, the implication 
of some of these drawdown numbers.
    And, Sergeant Major, I want to follow up specifically on 
what you are saying. And of course we know we want to take care 
of these men and women in uniform with the best medical care, 
the best mental health care, the best rehab that we can give 
them, particularly if they are injured in the service of our 
country.
    But I want you to put a finer point on it if you can. Does 
this mean that at any given time there is a significant 
percentage of the men and women that are technically considered 
active duty but for various reasons are unable to deploy? Is 
there any way to be more precise about that? Are they being 
counted in the overall end strength figures?
    And then I am--I guess you have to raise the question, too, 
about the incentives that these pressures create for the 
progress we have made in this medical care and this mental 
health care and this rehabilitation. Are there pressures to 
change that somehow?
    You say we assure every service member that we are with 
them for life, but there is no question in the short run anyway 
there are these pressures that we need to contend with. And I 
would appreciate you reflecting on how we deal with this.
    Sergeant Major Dailey. Absolutely, sir.
    First, for the record I would like to say that those 
110,000 soldiers may or may not have to transition, and each 
one of those soldiers has an individual medical concern that 
either temporarily or permanently disqualifies for them 
deploying. And there is literally that many different cases, of 
which we deal with on an individual basis with our medical 
professionals.
    And our hope is, because we have invested in the young men 
and women, is to make them healthy, get them healthy so they 
can deploy, fight, and win. But those do represent the total 
force structure and they are part of our total number.
    So what we are doing--and we have a part of this, too--is 
we are making significant changes to our medical care system so 
it can accurately track and address each one of those specific 
needs. And I can't talk about each one of the specific needs of 
them because they are all different.
    But I can assure you those soldiers that we do have to 
transition--and we may have to, and we are also going to have 
to transition about 14,000 this year who would otherwise like 
to stay due to the drawdown--we are going to provide them with 
the best care that we possibly can and we are going to take 
care of their needs, as we have done and as we have proven over 
the last 12 years of war.
    Mr. Price. Any of the others----
    Sergeant Major Green. Yes, sir.
    Mr. Price [continuing]. Want to chime in on this issue?
    Sergeant Major Green. I would like to comment on that, sir.
    Our commandant, General Neller, when you talk about 7,000 
less that we have that are in that position, he has told the, 
you know, the staff down at Quantico at our headquarters down 
there, Manpower and Reserve Affairs, Training and Education 
Command, Marine Corps Recruiting Command, ``Let's take a look 
at how we train both on--when we are deployed forward and when 
we are back here in what we--most people know as a garrison 
life,'' so our physical fitness test, our combat fitness test, 
our weight standards, our obesity charts.
    He said, ``Let's take an overall look at what we are doing 
in the pool of recruiting before they go to boot camp; look at 
what we are doing in recruit training, how we train; look at 
what we are doing to retain the marines out here.'' He is 
looking at human performance optimization.
    We have come a long way, as you said, with medical care. 
And we are looking at everything from the things we put in our 
mouth, to the machines we work out on in our gyms, to the pack 
we carry on our back. Because some of those injuries are 
caused, you know, by using equipment that is no longer--it--we 
have outgrown that equipment. We have outgrown it.
    And we have science that proves to us that we can train 
better. He is absolutely getting at that. And our numbers are 
coming down as he, you know, tackles that problem.
    But it still remains the fact that the number of marines 
that we have drawing down to 182,000. When the commandant says 
we need 186,000 to do the missions that you all have given us 
to do and we go down to 182,000, that means our dwell time is 
not 1-to-2 or 1-to-3; it is 1-to-1-point-something, which 
means, you know, quality of life--you have got to come back and 
rest the force.
    We came out of Afghanistan and Iraq and we got--we have 
35,000 marines forward deployed at any moment, 22,000 in the 
Pacific. I mean, if you are going to--if you want us to rest 
the force and become healthy and that 100,000--7,000 to go 
away, a part of that is allowing us the time to rest, giving us 
the numbers that we need.
    The budget does not support that. It doesn't support that.
    So you gotta rest the force in order to do that, and you 
gotta modernize the force.
    Mr. Price. Thank you, Mr. Chairman.
    Mr. Dent. Thank you.
    At this time I would like to recognize the gentleman, Mr. 
Joyce, for 5 minutes.

                   CREDENTIALS FOR MILITARY TRAINING

    Mr. Joyce. Thank you, Mr. Chairman.
    Sergeant Major Green----
    Sergeant Major Green. Yes, sir.
    Mr. Joyce [continuing]. And Chief Cody, if you had 
something to add regarding credentialing, that was one of the 
topics I want to address. I know that there was some response 
from Sergeant Major Dailey and Master Chief Stevens. If you had 
anything else you wanted to say about that, I think it is 
important.
    I know at home, all across my district, there is employment 
to be had, and they are looking to employ veterans, and they 
want to make sure that this transition is as smooth as 
possible. If you had any suggestions on how we could be 
helpful----
    Sergeant Major Green. Yes, sir. It is----
    Mr. Joyce [continuing]. I wanted to give you the 
opportunity to respond----
    Sergeant Major Green. Sir, it is a--I will be brief. It is 
a state-to-state, you know, conversation that needs to be had. 
You have some states like North Carolina where we have Camp 
Lejeune, you know, Marine Corps Base Camp Lejeune there. They 
have worked well. The state has worked well.
    Not every state really has an interest in this. We can't 
make states--they are your states; they are your constituents. 
You know, we can't make them come to the table. We absolutely 
invite them in forums like the U.S. Chamber of Commerce, Hiring 
Our Heroes. You have individual organizations that come in.
    But that needs to be addressed at a state level. The states 
need to have some concerns about the military people that 
return to the states. They need to take an ownership in that.
    We have the Military Apprenticeship Program, which we 
introduce to marines within 30 days of joining their unit. They 
go to, you know, a class, 7 hours, and a part of that is 
introducing them to COOL, the credentialing Web sites, the MEP, 
you know, I just talked about. They are introduced to it up 
front.
    We are aligning the MOS, about 257 out of 300 military 
occupational specialties, identifying all those credentialing 
items that we can do. So we are doing are part, sir. We just 
need the states to do their part.
    Chief Master Sergeant Cody. Congressman Joyce, I will build 
on what Sergeant Major Green talked about. So the credentialing 
opportunities online has really been producing some positive 
results. We have about 1,700 total licensures available, and 
just in last year we added a little over 900 to that. We are 
making progress in the right way.
    I think where we could really use this body's help--so 
continued support within your states, but as a body. It is 
really, how are we going to link up the DOD, Department of 
Labor, Veterans Affairs, and every one of these state 
organizations that deal with labor in those states? If we link 
these organizations together in a cohesive way, now you have 
this continuum of when we transition folks from the military 
through Transition GPS that these are all connected.
    The problem is there are opportunities out there for 
service men and women. They are very skilled. They are 
desirable. They have work ethic; they have experience.
    But every one of these entities work in their own way. And 
while we try to get the thread together, it is like--it is by 
happenstance; it is by ``I knew somebody''; we get a great 
representative that goes out there, does it, and it works for a 
while.
    So if this body--I mean, and we did it. If you really want 
to use a model of how we did it with every one of the states. 
We did it with the education.
    So we have every one of the states now that are 
acknowledging our military children, that are moving from state 
to state and putting them in the same place. If we give that 
access, if we can work through the right legislation to give 
those agencies access to the information that they would need 
to know, they can reach right out to these great men and women 
that have served.
    I appreciate your efforts to assist these service men and 
women.
    Sergeant Major Dailey. If I could just add, so----
    Mr. Joyce. I wanted to follow up, because I think this is 
very important and you had an opportunity and they didn't have 
an opportunity.
    My father is a World War II vet who was shot and left for 
dead, and he believed it was his faith that brought him home. 
We never talked about it when we were kids, but as he was dying 
we were having these conversations, and we said to him, ``What 
was it like?''
    He said you came home and you went to work. What was there 
to talk about? You did your job, and you came home and would 
work.
    It is important we transition people to work, because it 
brings me to my next point: the high rate of suicide among our 
veterans.
    I want to give you all an opportunity to discuss what it is 
that you are doing to help bring those numbers down, and what 
we can do better to help facilitate the transition from active 
duty to civilian life.

                         SUICIDE AND TRANSITION

    Sergeant Major Dailey. I will begin, if that is okay with 
my counterparts here.
    This year was a tough year for the United States Army. We 
actually saw an increase in suicides, and some of that was in 
our Guard and Reserves. And we have been working this very 
hard, so this is--not go without a lot of effort put into this.
    Over the last few years we have expanded our behavioral 
health teams to greater than we have ever seen in Army history, 
and we have embedded them down to unit level. We have 58 
embedded behavioral health teams now to give that access and to 
break the stigma of seeking help for mental health.
    But I think where we can do more and where you can help us 
is getting that help out to our National Guard and Reserves. Of 
course, they have access to all the things when they live, you 
know, close to a military installation. But unfortunately, not 
all of our Guard and Reserve soldiers do. They are dispersed 
throughout the United States, and we have seen a rise.
    And I believe that because of the efforts that we have done 
and we have provided at our installations, those people who are 
close on and the active soldiers that live there have 
benefitted from it. So I think that is an area that we can 
improve.
    Master Chief Stevens. The Navy is increasing--we have got 
these teams called operational stress control teams, and they 
go out to our various units 6 months prior to deployment and 
they sit down with the service members, the sailors, and talk 
to them about the stressors in life that unfortunately, you 
know, lead sometimes to suicide.
    And so we recognize that we have seen some progress on that 
so we have upped the ante. We are now funding more of these 
teams to go out to ensure that we are touching base with more 
of our service members.
    You know, the numbers are a little bit elusive. I wouldn't 
say we had a good year; we had a better year than we had last 
year with regards to the numbers of suicides. But soon as you 
say that then, you know, something changes and it is not as 
good the following year, so we are certainly not saying that we 
have achieved success.
    So we will continue to work with these operational stress 
control teams. We will continue to invest the resources that 
are necessary.
    We have identified some things that we believe oftentimes 
lead to suicide, and so we have had an initiative called ``Ask, 
Care, Treat,'' and then we have another initiative called, you 
know, it is ``Every sailor, Every Day'' or ``1 Small ACT.'' It 
is making sure that no sailor feels like they are ever alone, 
because oftentimes in between these transition points from 
training, or duty stations, or when somebody has a life-
changing event, whether they get in trouble or lose a loved 
one, sometimes we forget that, you know, we need to spend time 
and pay attention to those people.
    And so we are making sure that we always have a hand on 
them, that we are always talking to them, and we make sure that 
we help walk them through these difficult times with this 
``Every sailor, Every Day'' or ``1 Small ACT.'' So we are 
hopeful that we will continue to see improvements, but time 
will tell.
    Sergeant Major Green. So, sir, we have the Wounded Warrior 
Regiment, and that takes care of our wounded, ill, and injured. 
And they have programs like the DISC, the district injury 
support coordinators, that are out in America in different 
areas.
    And they are reach-back, because the problem that we are 
seeing is how to close the gap on the millions that have served 
in the uniform and they have come home with the ghosts, and we 
can't reach out and touch them. How do we close that gap?
    That is when we talk about state credentialing and tying 
all this together, the V.A. support necessary and the backlog 
there. All of this creates--suicide is the end state. It is 
given that everything that makes someone feel that they are not 
worthy to live. It is all the programs, the quality of life 
that we are talking about here.
    You know, the commandant has the Marine for Life 
Initiative. Marine for Life started in 2002. Everyone else 
adopted that from the Marine Corps. We still have that 
initiative going today with transition.
    We have to understand that there is a need to stay in 
contact when we say ``Marine for Life.'' We are trying to build 
this robust program to reach out and touch--to use our iron 
eyes, our recruiting stations out there, inspect the instructor 
stations, everybody in the civilian world, the veterans' 
organizations, public organizations--to reach out to these 
warriors.
    Because when they leave and they come out of that uniform, 
they get--they go back into a world that doesn't understand 
where they have been. They haven't been working for Google and 
Facebook. They have been fighting combat--they faced the enemy. 
And connecting that and understanding that, it is just--it is 
overwhelming sometimes.
    And it is not just that, you know, this year has been a bad 
year or that year has been a bad year. Every suicide. You know, 
you have seen a spike in kids in the military committing 
suicide, dependents. I mean, that is a quality of life that 
someone feels like they don't rate.
    That is where we are with it, with getting at suicide.
    Mr. Dent. Thank you, Sergeant Major Green.
    And let me go to Ms. Lee for, 5 minutes--recognize her.
    Ms. Lee. Well, thank you very much, Mr. Chairman and to our 
ranking member.

                     POST TRAUMATIC STRESS DISORDER

    I apologize for being late. I was at a meeting at the White 
House, but I really wanted to get back to say thank you, first 
of all, for your service and for being here today.
    Just a little bit about a personal note on quality of life. 
My dad was a lieutenant colonel, 25 years in the Army, 
stationed at Fort Bliss. And in the day Fort Bliss was the only 
place that I could go to a restaurant because of segregation; 
it was the only place I could go to the swimming pool; it was 
the only place we could live in a house during that period that 
was a really lovely house.
    And so I just wanted to say quality of life issues, just 
coming from the daughter of a veteran, I remember the day when 
the Army provided the quality of life for my family that we 
otherwise would not have had. And so thank you very much.
    Couple of things I want to raise, just in terms of PTSD. My 
background is psychiatric social work, and I am really 
concerned about an article that I read in the New York Times.
    Mr. Chairman, I would just like to put this in the record 
and ask Sergeant Major Dailey about this.
    And I want to just read a bit from this article. This has 
to do with Kristofer Goldsmith, who was discharged from the 
Army at the height of the Iraq war in the hospital after 
attempting suicide.
    After coming home he--on his first deployment his duties 
were photographing mutilated corpses. After coming home, he was 
stalked by nightmares and despair. In 2007 he overdosed on 
pills and his platoon found him passed out in a grove of trees 
at Fort Stewart, Georgia that had been planted to honor 
soldiers killed in combat.
    Now, instead of screening Mr. Goldsmith for post-traumatic 
stress disorder, or PTSD, records show that the Army wrote him 
up for missing his flight, then forced him out of the military 
with a less-than-honorable discharge. When he petitioned the 
Army to upgrade his discharge, arguing that he missed his 
flight because of undiagnosed PTSD, it rejected his appeal. 
Years since he has appealed twice more for an honorable 
discharge, has been denied both times.
    So how are you looking at discharges as it relates to 
dishonorable discharges, for example, that occur when really it 
is PTSD that is service-related and there is--there does not 
seem to be the system in place that will allow the veterans or 
the personnel to really, you know, have the benefit of the 
doubt and argue the case that whatever took place was as a 
result of a service-connected PTSD?
    Sergeant Major Dailey. Yes----
    Ms. Lee. And I would like to put this in the record, Mr. 
Chairman.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]          
    
   
    
    Mr. Dent. Without objection, it will be----
    Sergeant Major Dailey. And, Congresswoman Lee, I can't talk 
to the specifics of the nature of the article you referred to. 
I would, you know, have to take that for the record. So I can't 
talk to those specifics.
    [The information follows:]

    The Army Review Boards Agency (ARBA) considers requests for 
upgrade of General and Other Than Honorable (OTH) discharges. 
Additionally ARBA (and its subordinate boards) can upgrade 
punitive discharges (Dishonorable and Bad Conduct discharges 
for enlisted Soldiers, and Dismissals of commissioned officers) 
imposed pursuant to a court-martial sentence.
    The Army has fully implemented the November 3, 2010 
Secretary of Defense supplemental guidance, directed to Boards 
for Correction of Military Records (BCMR), for discharge 
upgrade requests for Veterans claiming PTSD.
    ARBA has further applied the Secretary of Defense's 
guidance to the Army Discharge Review Board to ensure fair and 
consistent treatment regardless of when the veteran served, 
focusing on veterans who served before PTSD was a recognized 
diagnosis. Evidence of PTSD can be provided from service 
records, a VA diagnosis, or a civilian mental health provider. 
The boards exercise caution in upgrading discharges when the 
misconduct was of a serious nature or was premeditated.

    But I can talk to the specifics of what we are doing now 
and the specifics of the nature of the issue that you are 
talking about.
    So first and foremost, the Army takes behavioral health and 
the injury to our soldiers very seriously. I am among those men 
and women that have deployed for 5 years to combat, and I take 
it very seriously.
    So firsthand I know the experiences. Firsthand I know the 
challenges associated with looking and doing the things that 
you described that young man had to do in combat, and I can 
assure you this leader is critically focused on the health and 
the welfare of our young men and women.
    I am also responsible for their discipline. So I understand 
that we have to balance the care of our soldiers, but I also 
have to ensure that this Nation is protected by men and women 
who are members of the profession, uphold standards at all 
times, and they represent and are held to a higher standard 
than the people that they are paid to protect. So it is a 
delicate balance.
    But what I can assure you, before any soldier now that is 
discharged, they are carefully reviewed, especially if they 
have behavioral health, by both a medical professional and the 
chain of command to ensure that all of their medical benefits--
health needs are met and that there is not a confrontation 
between the discipline and the behavioral health problems they 
have. I can report that in 2015 less than 1 percent of the 
people who were discharged had PTSD, so I can tell you--I can 
assure you that we are taking care of our soldiers.
    And we are reviewing each one of the cases that were 
alluded to in a recent article, around 22,000 of them that were 
discharged with behavioral health issues, and the secretary of 
the Army--the acting secretary of the Army will release that 
review here very shortly.
    Ms. Lee. So you are reviewing those to look at possible 
other factors, such as PTSD, that could have been responsible 
for a dishonorable discharge?
    Sergeant Major Dailey. We are.
    Ms. Lee. OK.
    Thank you, Mr. Chairman. I think that is very important to 
get on the record also, because that is a lot of--those are a 
lot of people.
    Sergeant Major Dailey. They are a lot of people, yes, 
ma'am. I agree.
    Ms. Lee. You know, and----
    Sergeant Major Dailey. And they are our soldiers.
    Ms. Lee. And they are soldiers. That is right, and----
    Sergeant Major Dailey. They are our soldiers, yes, ma'am.
    Ms. Lee [continuing]. And they deserve this.
    So thank you very much, Mr. Chairman.
    Mr. Dent. Thank you, Ms. Lee.
    Mr. Bishop. Mr. Chairman, may I just interject something?
    Mr. Dent. Absolutely.
    Mr. Bishop. Back a few years ago the Surgeon General of the 
Army came back with a report to the Defense subcommittee that 
basically concluded that any soldier that was deployed in 
theater for a minimum of 2 weeks had some incidence of PTSD.
    Sergeant Major Dailey. Congressman, I am not familiar with 
that----
    Mr. Bishop. But I am just--that was the conclusion that was 
reached. So every deployed service member is likely to have 
some degree of PTSD; some is greater than others.
    So the impact on conduct that Ms. Lee is referring to and 
is referred to in the article is very serious because, you 
know, in our case work we have applications to review all the 
time and we are submitting that. And if the folks who are doing 
the review have been there for a while and are not fully 
familiar with the impact of PTSD, that will result in a denial 
when it probably is actually service-related and probably 
should be upgraded--the discharges.
    Mr. Dent. Thank you, Mr. Bishop.
    At this time I would like to recognize Mr. Fortenberry, for 
5 minutes.
    Mr. Fortenberry. Thank you, Mr. Chairman.
    Gentlemen, good morning. Pleasure to see you all. Thanks so 
much for your service. Thanks so much for your enthusiasm.
    The chairman and I were sharing a comment a moment ago and 
it really--the heart of it is this: Where does the strength of 
America come from? We don't reflect on that a whole lot. We 
really don't.
    And it doesn't come out of Washington policymakers; we 
should be reflective of that strength. It comes from values.
    And how are values formed? They are formed in family life 
and faith life and through institutions that have solid 
tradition, that have a vision, that have a mission, that are 
self-sacrificial in nature, leading our minds and hearts to 
higher things.
    You represent that. You are one of the few institutions 
left in the country, frankly, with a pervasive effect of 
bringing people to a set of values that has deep meaning and 
purpose, so I want to thank you for your sacrifice.
    In that regard, what we are talking about is absolutely 
essential: How do we keep soldiers, marines, airmen, air 
personnel for life, being part of that military family and 
upholding this great tradition?
    So I want to walk through a series of questions with you, 
but first I want to commend Mr. Jolly, my colleague, for what 
he did in Florida. I am very interested in this. I think we had 
a conversation last year in the hallway and----
    Sergeant Major Dailey. We did.
    Mr. Fortenberry [continuing]. We talked about some of the 
dynamics in Nebraska. I want to make sure we are harmonizing 
everything with your transitional programs, so can you come?
    Sergeant Major Dailey. I will, sir.
    Mr. Fortenberry. OK.
    Sergeant Major Dailey. I will.
    Mr. Fortenberry. Perfect. We will set that up with you.
    We have got certain Department of Labor programs for 
veterans in the state, many businesses very interested and 
acclimated toward hiring veterans, several universities doing 
different things. I just want to make sure it is harmonized, 
that we are all pulling the same direction and effectively 
leveraging it.
    Sergeant Major Dailey. And if I could make a statement to 
that----
    Mr. Fortenberry. Yes.
    Sergeant Major Dailey [continuing]. Ladies and gentlemen, 
when you help us in these efforts it makes a difference. It 
makes a difference. It is a stand that our civil leaders 
support the things that we are doing and it literally makes a 
difference.
    When Congressman Jolly comes to events like that he brings 
people, and people listen because you are their 
representatives. So I appreciate if each one of you could find 
time to highlight--come see the great things that our soldiers 
do. And I know many of you already do, but I would appreciate 
it if you could do that because it does advance our efforts--
our collective efforts to take care of our service members.

                   CREDENTIALS FOR MILITARY TRAINING

    Mr. Fortenberry. Well, let's figure out a pathway to get 
that done. This issue of transition is so critical to the well-
being of so many people.
    I want to explore a little bit this issue of credentialing. 
I think you talked extensively about it. I assume all branches 
have this process, but what exactly does that mean? I don't 
want to spend too much time on it, but again, how that is 
harmonized.
    Or is the credentialing itself in the military actually 
being seen by employers as a new standard that meets acceptable 
general standards that come out of academia or other 
institutions? Let me put them all on the table and then you can 
address these as we go through. I don't want my time to run 
out.
    TRICARE for Life--in the current health care construct 
children can stay on their parents' health care bill till 26. 
That is not the case in TRICARE, as I understand it. Is that 
correct?
    Chief Master Sergeant Cody. Twenty-five until--if they are 
going to school.
    Mr. Fortenberry. If they are full-time students.
    Chief Master Sergeant Cody. If they are full-time students 
they can be--continue to be carried on until that----
    Mr. Fortenberry. So that is the stipulation?
    Chief Master Sergeant Cody. Yes, sir.
    Mr. Fortenberry. OK. Is that an issue in--I think some--
what the point ought to be is I think somebody ought to do the 
analysis on this because I didn't vote for the current health 
care bill--I need to make that clear--but one of the aspects of 
it that I thought--I think is reasonable is keeping children on 
the parental health care plan longer, and it actually may end 
up saving the entire system money. Younger people are 
healthier; it replenishes pools.
    So I think it would be interesting to see if this could be 
an enhancement of the quality of life issue for families and 
actually save some money. So if there is a possibility of any 
of you could analyze that.

                    MARINE CORPS COMMUNITY SERVICES

    Is your recruitment strong?
    And then, Sergeant Major Green, you referenced the military 
resale system as a significant employer of military families, 
and I want to learn more about that.
    Sergeant Major Green. You say the resale system, sir?
    Mr. Fortenberry. Yes, in your testimony.
    Sergeant Major Green. Oh, yes, sir. Yes, sir.
    Mr. Fortenberry. I assume that is commissaries and----
    Sergeant Major Green. Yes, sir. Yes, sir.
    Mr. Fortenberry. OK.
    Sergeant Major Green. Yes, sir. You know, the Military 
Compensation and Retirement Modernization Commission had an 
initiative in there to join commissaries with exchanges. The 
value of our commissaries, of course, is the savings.
    You know, people may live--marines families may live 
somewhere far from the base because that is where they choose 
to live, but they absolutely shop at the commissary. The resale 
value of getting the goods where they need to go overseas, and 
what we are going through with commissaries not being 
successful, not producing enough to keep their doors open.
    The Marine Corps has a program--just the Marine Corps alone 
has Marine Corps community services. It is tied to our 
exchanges. If we join----
    Mr. Fortenberry. That is a brilliant idea.
    Sergeant Major Green. Sir?
    Mr. Fortenberry. That is a brilliant idea.
    Sergeant Major Green. Well, to join them together?
    Mr. Fortenberry. Well, I don't have the working vocabulary 
that you have so I am generally----
    Sergeant Major Green. Oh, the Marine Corps community 
services?
    Mr. Fortenberry. Yes.
    Sergeant Major Green. Yes, sir. We are the only ones that 
have the MWRs encased in that.
    Marine Corps community service is tied to an exchange.
    Mr. Fortenberry. Try not to use acronyms. I know it is 
tough----
    Sergeant Major Green. Yes, sir. Yes, sir. Yes, sir.
    Mr. Fortenberry [continuing]. In the military, but----
    [Laughter.]
    Sergeant Major Green. Marine Corps community services are 
tied to exchanges, and the exchange system for us produces a 
profit to make up in child care funding.
    Mr. Fortenberry. But again, think about that Marine for 
Life, the tie of the family, giving people opportunity and 
proximity to where their loved one is, participating in the 
mission. I have actually also proposed expanding commissary 
benefits for veterans.
    Sergeant Major Green. Yes, sir.
    Mr. Fortenberry. You could start with disabled veterans. I 
would like for you all to entertain that prospect.
    And I have more, Mr. Chairman, but my time is up so I will 
come back to it later.
    Mr. Dent. We can go into a second round of questioning 
here. Obviously we are not voting till I think closer to 11:30, 
so we can try to go through the second round or until votes are 
called, whatever comes first.
    So I just have a few more questions I wanted to get into as 
we are talking about quality of life issues. It has been a very 
interesting discussion.
    I think, Sergeant Major Green, you said at one point during 
the discussion this morning--you talked about individual 
readiness, unit readiness, and family readiness----
    Sergeant Major Green. Yes, sir.
    Mr. Dent [continuing]. I think is what you had said. And I 
think all other branches concur.

                          RATE OF FORECLOSURES

    But do you and this is open to any of you--do you track the 
rate of foreclosures--I want to get into housing--foreclosures 
among military homeowners, and are you hearing of any service 
members who have a permanent change of station and are unable 
to sell their homes at their prior stations?
    Are you hearing anything about this? I am just curious, you 
know, how this economy is affecting recruitment, retention, how 
is it affecting your ability to sell homes when you have to 
move about?
    So if anybody wants to take a stab at that?
    Sergeant Major Green. I will take a first stab, sir, since 
you highlighted my name.
    You know, in the height of the war in the beginning, when 
the bubble burst in 2008 and before, that was a huge problem 
because we were, you know, permanently change of station, 
PCSing Marines at the same rate. Once we began to understand 
that, we began to work with the monitors more and talk about 
what financial situation families are in.
    And that is really what it comes down to, sir. It comes 
down to leaders knowing their people, knowing the marines and 
the families of the marines, trusting that the leaders have 
their best welfare and their best interest at heart, and that 
when you see someone in that situation you are going to provide 
an avenue that is going to make them most successful--not just 
permanent change of stations just to be doing it or, ``It is 
your turn to go.'' We have to stop and actually realize that 
that is a human being, a family that is making a move.
    And we have closed that gap tremendously, sir.
    Mr. Dent. Well, thank you.
    Any other services want to chime in on that?
    Chief Master Sergeant Cody. I agree with Sergeant Major 
Green. We had a significant issue with that when the housing 
boom kind of----
    Mr. Dent. Yes.
    Chief Master Sergeant Cody [continuing]. Floor fell out and 
there was some legislation passed that provided some relief for 
service men and women and families. I don't want to say it is 
not an issue at all; it is just not the issue it was. There are 
still----
    Mr. Dent. OK. So it is better than it had been, but----
    Sergeant Major Green. Yes, sir. It is just better. The 
issue is there.
    Mr. Dent. Yes, it is there. It is not as bad as it was a 
few years back, but--okay.
    Now I am going to probably get into some dangerous 
territory here because I am going to ask you to speak for your 
spouses, some of whom are here today. And it really has to do 
with this--you know, we are talking about family readiness. Do 
you track the employment rates among military spouses, and are 
those rates going down, or are you hearing anecdotal evidence 
of a lot of military spouses losing their jobs?
    So I don't want--I am asking you to speak for your spouses, 
but hey, I wouldn't object to them chiming up for themselves if 
they have any anecdotal evidence. What are you hearing on that 
front?
    Sergeant Major Green. I will go first, sir. So my wife, she 
is a registered nurse and every state has a licensing process. 
I honestly think it is a money racket because medicine doesn't 
change from state to state, so why should she have to license?
    And she has sat on some of the military boards and voiced 
this. Why should she have to relicense when we move from 
California to Virginia? I mean, what is that all about?
    And we are doing that to families, you know, all around the 
Nation. And the employment rate--you know, transition--spouse 
transition is available also. STARS--Spouse Transition 
Assistance and Readiness, within the transition program. STARS 
is built in there.
    In the Marine Corps we utilize that not only for 
transitioning spouses, but we have programs for spouses to--
once they check into their installation they can go right away 
and get that help from Marine Corps community services, that 
unique thing that we have. So we do visit that, sir. We don't 
track per number, but we offer every family that opportunity to 
have that knowledge.
    Sergeant Major Dailey. I would just like to make a comment 
on the impact of what you just described has on our soldiers 
and their families. Like you mentioned, I don't believe we do 
but I will check for the record, and I will take that for the 
record, if we track spouse employment rates.
    [The information follows:]

    Yes, installation Employment Readiness Program (ERP) managers track 
military spouse hires and report findings monthly to an Army Community 
Service database. However, spouses are not required to provide their 
employment, so the data are not totally accurate.
    Anecdotally, ERP managers have heard that military spouses can lose 
their jobs when Soldiers return from deployment. Spouses ask for two 
weeks off to spend time with their Soldiers, but are often turned down; 
therefore, they may choose to stop working. Child care issues are 
another reason spouses leave their jobs or are not able to seek 
employment. Additionally, military spouses quit their jobs when their 
Soldiers are reassigned to new duty locations.
    The Office of the Secretary of Defense Military Spouse Employment 
Partnership (MSEP) tracks military Spouse hires by Service on a monthly 
basis. The MSEP connects corporate America with the talented pool of 
military spouses, brings together partner employers and the military 
Services to offer long-term career opportunities to military spouses, 
providing them with opportunities for portable employment.

    What I can tell you, though, is that is a factor in what we 
all describe for our young soldiers, sailors, and airmen and 
marines as they do PCS. The American family does have a little 
bit more of a luxury than what our soldiers, sailors, and 
airmen do, and that is stability. It is able to capitalize on 
things like buying a home, you know, being able to have a 
spouse's career and not having to move around all the time.
    And these are the challenges we assume--we assume ourselves 
and we sign up to do this. But it is a factor. The factors, 
those are the hidden compensation things that we don't 
compensate soldiers for. It is called equity. Equity in a home. 
Equity in a community. Equity in a soccer team. Equity in a 
spouse's career, because many American families today both 
household members do work.
    And it is a challenge, I can tell you just from my spouse, 
moving around and even working in the DoD, it is a tough 
challenge. Nobody's fault but our own, because we chose this 
lifestyle.
    And Congress has done a lot to help us with that in the 
past, but I think that we should take a look at that because 
there is an area here where I think we can help with things 
like licensing and making them equal across all states. Not 
just nursing--we have done a lot of work there, but same thing 
for credentialing for our spouses.
    And our Soldier for Life transition centers are also opened 
up to our spouses in the Army too, as well.
    Mr. Dent. Yes.
    Mr. Bishop.
    Chief Master Sergeant Cody. Chairman Dent, if I could 
just----
    Mr. Bishop. Would you yield for just a moment?
    I just want to make sure that you are aware of the 
Congressional Military Family Caucus and our partnership with 
the first lady's initiative and with Blue Star Families, that 
does a survey every year. And we just released a survey about a 
month ago on the needs of military families.
    And spousal employment and credentialing for spouses as 
well as for transitioning service members is a big issue. And 
we have been actively involved in that, trying to get uniform 
laws passed by state legislatures so that those licenses will 
be transferrable.
    I mean, it is not just nurses. You have got cosmetologists, 
you have got insurance people, real estate folks----
    Mr. Dent. Commercial licenses, truck drivers.
    Chief Master Sergeant Cody. Chairman Dent, we actually do 
have the Military Spouse Employment Partnership, which is 
exactly what Congressman Bishop is talking about from the White 
House, a huge program that really has produced great results 
since June of 2011, honestly, the program was kind of put into 
place. We have a little less than 300 companies that are 
partnered with that.
    We do track how many spouses have been matched, to those 
jobs. And then we have the spouse education opportunity, where 
they get that credentialing online. So there is some great 
effort there.
    But to both sergeant majors' point, there is still a gap 
there. The gap is as we move them it takes time. Sometimes they 
are not long enough to get there; sometimes they know we are 
not going to be there long enough to hire them, right? You are 
not going to be in the neighborhood that long.
    So this effort is producing some pretty significant results 
when you think about how many people have been hired. With 
547,000 jobs posted out there, this is a pretty good program to 
have available to our spouses. We just have to continue to link 
that with every state and those opportunities.
    Mr. Dent. Thank you, Chief Master Sergeant.
    And I recognize Mr. Bishop, for 5 minutes.
    Before I do, just going to mention that I am notified that 
we may have votes as early as 11:10, maybe as late as 11:25, 
so, you know, we will do 5 minutes each but try to keep your 
questions as quick as possible and your responses as short as 
you can make them. So thank you.
    Mr. Bishop, you are recognized for 5 minutes.
    Mr. Bishop. Yes.
    Mr. Chairman, you asked about the foreclosures, and I think 
the sergeant major referred to the PCSing. We did have a 
program called the Homeowners' Assistance Program, which was 
utilized quite a bit during the heat of deployments, where 
there were PCSes and families were moved where they had a 
mortgage and they moved from one side of the country to the 
other, or wherever, and had a home that was not sold and had 
two mortgages. And this program was made available to assist 
the service members.
    And it is my understanding that we have sort of downsized 
if not closed that out now. So I thought it was an interesting 
question to find out if there is still a need for it.
    But that was one of the elements of assistance that 
families could get. And, of course, they were severely 
penalized even more so than civilian families when the bubble 
hit.
    And that is, I think, a very, very important issue. And, of 
course, the Congressional Military Family Caucus is involved 
with that.

                            WOMEN IN COMBAT

    Let me shift gears for a moment and ask Sergeant Major 
Green and Sergeant Major Dailey to talk about the issue of 
women in combat. The secretary of defense, I think, has sort of 
made it clear that women will be eligible for all combat jobs. 
The Army, I think, has pretty much moved forward with that.
    There has been some resistance on the part of the Marine 
Corps. The commandant of course has to comply, but there has 
been somewhat of a concern.
    And so I wish I could get both of you to address it. I 
attended the graduation of the first two women from the ranger 
school at Fort Benning and, you know, everybody was very, very 
proud of their service, and their colleagues felt like they 
were just as prepared as any other ranger who ever finished the 
ranger school.
    I understand that the Marine Corps had some difficulty with 
the individual officer's course graduation for some women and 
has sort of put a hold on that. So could I get you to address 
that? Because obviously it impacts career promotion and 
progression, and we really would like for there to be equal 
opportunity in all of these areas.
    Sergeant Major Dailey. So the Army started this several 
years ago, and we invest in it heavily to do the research and 
analysis and to create one situation: Make every organization 
and every job in the Army open on a standards-based 
irregardless of gender, race, religion, sexual preference, 
anything.
    I think that we have done a phenomenal job at doing just 
that. Fifty percent of our Nation is women, and I think it 
would be an injustice to offer or close anything that someone 
who wanted to do and was physically able to do. And we proved 
through our research analysis that there are women that can and 
are willing to fight in our combat arms.
    And I am confident, and the chief has tasked me, to make 
sure that we maintain standards in those organizations, because 
at the end of the day this is about readiness. It is about 
readiness of our soldiers being able to fight and win our 
Nation's wars.
    And I can assure you that the standards are and will be 
maintained. As you saw outside--representing us outside Fort 
Benning, Georgia there, those fine women who graduated ranger 
school met and achieved the standard.
    Sergeant Major Green. Sir, the secretary of defense gave us 
marching orders: On the 1st of January all MOSs will open up 
and there--the six final loadbearing MOSs, ground combat MOSs, 
they are open as well.

                     MARINE CORPS FORCE INTEGRATION

    When I came in a year ago this conversation was at its 
heated moment. Talked to the secretary of defense and the 
secretary of the Navy. Wasn't about keeping women, you know, 
out of those MOSs.
    First let me say for the record, this conversation is not 
about women in combat. Women have been in combat for a long 
time and when you say that, women feel offended because we have 
had numerous women die in the uniform in combat.
    The conversation is about those MOSs, those loadbearing 
ground combat MOSs that are the toughest ones. Their standards 
are tough.
    The only thing we ask is that we do not change the 
standards. We have had women go to infantry officer's course. 
Not Officer Candidate School--women are there. So you have to 
go there to see the difference in the two.
    There is a lot of conversation going on, but very few 
people have visited. I don't think anybody in the room has 
visited every recruit training of all the services except 
myself. And if one of you all have done it, correct me.
    So I have seen firsthand over the last 3 months how 
everyone trains. Let me tell you, when you say ``Marine Corps, 
be most ready when the Nation is least ready,'' and we put a 
standard to something, do you want to change the standard is 
the question. Because if no female gets through IOC--because it 
is available, but do you like the product that we are producing 
on this end right now? If you like that product then you are 
not going to tell us to change the standard.
    Are you going to challenge the standard is the question. 
Why would you challenge the standard? Because challenging the 
standard would get at making it an even fight.
    Those six MOSs are open now. Any woman can come into it. 
But here is how it works: In order to put a private, an E-1, in 
to infantry, the loadbearing MOS, the marine that looks in, 
kicks the door in, looking to be killed--it is not about the 
woman. It is about making sure the 7 percent of the female 
marines that we have are successful, that we maintain 7 or more 
percent.
    Because if you throw them in right now on day one the 
average male marine--recruit in boot camp--can do 12 pullups 
when they hit the yellow footprints on day one. The average 
female American that goes to recruit training can do zero to 
one. That is the average.
    What we wanted was time to study and make sure we are 
setting all marines up for success and that we are not 
touching, you know, combat readiness or effectiveness.
    So in saying that, we raised the Ground Combat Element 
Integrated Task Force. We are the only service that took the 
time to study this because we have the most to lose.
    We have the most to lose in this because we have six MOSs 
that have never been opened up to women. You can't just say 
throw them in there. You have got to have a cadre of senior 
enlisted and officers to be there when they get there.
    Now, here is what the female marines say for the most 
part--the ones that are serving now, ``Wait a minute. Why are 
you changing this?'' I am talking about infantry right now, all 
three, the one that we asked not to open along with combat 
engineers.
    We just give marines orders to those MOSs. They go to the 
battalion level. They put on a pack, 100-plus pounds, and they 
march 25 miles to get tested for combat readiness. Those were 
all males. Those were all males.
    We want to know the effect--what effect is that going to 
have on a female? Physiologically and biologically we are 
different, and no one in this room can do anything about that. 
We have to have time to study that.
    So the Ground Combat Integrated Task Force, we submitted 
that. A lot of people didn't listen to it.
    We can break it, but let's not break it. Give us the time 
to get it right, is what the commandant is asking.
    Mr. Bishop. Yes. I wanted to ask you that because I wanted 
to give you an opportunity to give that explanation.
    Sergeant Major Green. Yes, sir.
    Mr. Bishop. And I appreciate that very much because none of 
us wants to change the standards. We want marines to be marines 
regardless of gender. But I wanted you to have the opportunity 
to give that explanation as to the difference between the 
ranger training, the Marine individual officers' corps, and why 
it is that the Marine Corps has had some concern.
    Sergeant Major Green. If I could just say, sir, ranger is--
you can be in the Army and go to be a ranger, you can come as, 
you know, in the process, the accessions. In the Marine Corps 
infantry that is a military occupational specialty that you are 
going to live the rest of your life. They are two totally 
different things.
    Mr. Dent. This is a very interesting discussion, I must 
say. And I know, too, that a lot of our soldiers and marines 
and others coming back from warzones come back with 
musculoskeletal issues. You know, you mentioned carrying a lot 
of weight and it is a conversation we are going to have to 
continue to have here.
    Given the time restraints, I am going to ask that we go 2.5 
minutes each, if that is okay with each of the members.
    So I am going to recognize Mr. Valadao, then Mr. Price, 
Jolly, and then Joyce, okay?
    Mr. Valadao. Well, I will have some questions for the 
record. Obviously there are a lot of very important issues.
    One that I know was touched on while I was gone: 
commissaries. They play a huge role, and so I am going to want 
to know what each one of the branches can do, understanding 
that location makes a difference as far as rural, how close 
they are to communities and shopping and how much of an impact 
there is on our enlisted, our soldiers', our sailors' pockets. 
I mean, this is something that affects their daily lives and 
the resources that they are given.
    I had the honor to actually visit Iraq and Kuwait over 
Christmas and spend quite a bit of time with some of our 
troops, and one of the things that was brought up was the 
ability to contact their homes and their families via Internet. 
And a lot of them are relying on local services. And I 
understand the need to conserve resources and not put a huge 
infrastructure in place to provide Internet, but it was 
something that I found very interesting and obviously an impact 
on quality of life for these folks and being able to 
communicate is important.
    And one of the things I did find interesting was that quite 
a few folks had the opportunity to reach out and actually wish 
their families a Merry Christmas and throughout the holidays, 
and that is something that does play a huge role.

                     LEMOORE NAVAL STATION HOSPITAL

    I have the honor of representing Lemoore Naval Air Station, 
and it is something that is very near and dear. I hear about it 
quite a bit--just in the last 2 weeks I had a few tele-town 
halls and it came up in both, and it has to do with the 
hospital there at Lemoore. And when I was out on the USS Ronald 
Reagan, again, I had a chance to talk to just a few sailors by 
myself and get an idea of what they are struggling with, and a 
lot of the issues that were brought up today were brought up, 
as well, but the hospital is one that they all nodded their 
head in agreement with and is a very big deal to a lot of those 
folks.
    And I would like to ask Master Chief Petty Officer Stevens 
about what is going on there. I know that they have cut back on 
the emergency room services and delivering of children--
maternity ward, and I know it is no longer 24-hour service. But 
as things are changing, as the base is growing, what are the 
opportunities there to serve these and to make sure that as our 
guys are deployed they know that their spouses and their 
families are being taken care of with the hospital there on the 
base?
    And if anybody else wants to add to that at the end, happy 
to take it.
    Master Chief Stevens. Well, as the size of the base or the 
capacity, with the Joint Strike Fighter coming in, as that 
changes and populations increase there is always the 
opportunity to revisit and see what is the, you know, the best 
application of the hospital there in Lemoore.
    The hospital itself has great capacity. What they are 
trying to do right now is balance the cost and the proficiency 
aspect with the doctors and the nurses and the technicians.
    So if you were to fully staff that hospital with its 
capacity or its capability, the doctors, the nurses, and the 
technicians there wouldn't get the sets and the reps that they 
need to maintain the proficiency that is necessary for them. So 
what they do is they load-share with the hospital out in town, 
so some of the emergency room services, child delivery, and 
things like that, folks can do some of that out in town and 
they can do some of it on the base.
    So that way they are able to have the right number of 
patients coming through to maintain proficiency for the doctor. 
You wouldn't want to have a heart surgeon that does one open-
heart surgery every 6 months be your heart surgeon. And so what 
you gotta do is make sure that you find the right balance 
between the capacity of the hospital and the number of patients 
that are coming through.
    But again, as the hospital--because the hospital has that 
capacity we bring more people in there. All they gotta do is 
start plugging in more doctors and nurses and technicians and 
they are able to sustain the necessary care. So just trying to 
find the right balance between cost, capacity, and doctor 
capability.
    Mr. Valadao. Just for the record, my nephew was born at 
that hospital so that is actually something that is very 
personal.
    So again, thank you, Chairman. We will have some questions 
for the record.
    So thanks for your service.
    Mr. Dent. Thank you, Mr. Valadao.
    Let's go to Mr. Farr now for 2.5 minutes--2.5, yes. We are 
going to be voting any time now.
    Mr. Farr. Well, thank you, everybody. I thought I would 
just tell the committee a true story about going--out to 
Bethesda--I mean at Walter Reed to the rehab center there with 
my brother-in-law, who was trying to talk to military--he is--
my brother-in-law is totally disabled but he has watched 
disability golf and trying to get accessible carts on military 
golf courses.
    And we ran into a wounded warrior coming back from Middle 
East in a wheelchair named Tammy Duckworth. She came into the 
room just lit up, you know, like a--everybody said, ``Wait 'til 
she comes in.''
    And so I was asking her, she said, ``I guess you want to 
know how I lost my legs. I was trying to, you know, bring a 
helicopter down and couldn't figure out why my feet didn't 
work.'' And she said, ``Because I didn't know it, I lost my 
legs but I was able to land it.''
    I said, ``Well, what happens now?''
    And she said, ``Well, I am going to get my prosthetics and 
I am going right back. I am going right back.''
    So I asked the officer standing next to her, ``Is that 
possible?''
    He said, ``If she can''--she is going--she wants to go back 
to be an instructor, not go back to--as a warfighter. He said, 
``If she can pass all of the requirements, all the physical 
requirements, she can go back.''
    She didn't pass them. She is now a congresswoman. So 
unintended consequences.
    Anyway, I just want to thank all of you for your service. 
And particularly, you know, we have a tradition in this 
committee where we certainly listen to the combatant commanders 
and everybody else at the high rank, but I think this is one of 
our favorite moments of these hearings to really listen to the 
enlisted--the men and women of our services and what you do for 
them.
    You speak the voice of the community, and I really 
appreciate that.
    So I just want to--I do think, in all due respect, we need 
to also, as we defend the needs for these benefits, we also 
need to sort of be proud of them. And I don't think we should 
be afraid of telling people, ``Look, you have given service. 
You are going to--you got these,'' and the private sector ought 
to hold up to this stuff.
    America right now--and this is--I am just really worried 
about us, this whole discontent that is showing itself. And of 
all, what is--who are the most popular candidates out there? 
The ones that are dissing government.
    Well, military is a big part of government. So if you are 
dissing all of it you are going to be dissing all the members 
of that family. And we have got to do a better job, us as 
politicians, of selling the benefits of government rather than 
just saying that government is the problem.
    And I think you are role models for helping us sell it 
well. Thank you.
    Mr. Dent. Thank you, Mr. Farr.
    Let me recognize Mr. Jolly for 2.5 minutes.

                         SINGLE SAILOR HOUSING

    Mr. Jolly. Thank you, Mr. Chairman.
    For the MCPON I am going to give the floor to you to make 
your best case here. I know your strong concern over single 
sailor housing. You mentioned it in your testimony; we have 
talked about it, as well.
    What does this committee need to attend in a perfect world 
as best as we could? Given limited resources, how can we do 
better for the young men and women in the Navy for single 
sailor housing.
    Master Chief Stevens. Well, as I mentioned in my opening 
remarks--and I need to be clear because I have discussions with 
the Navy's most senior leaders and they know my passion on the 
single sailor housing, and they said, ``MCPON, as you talk 
about this please don't ask people to ask us to move money from 
operational accounts to the housing account,'' right?
    Mr. Jolly. I understand. Right.
    Master Chief Stevens. And so again, this is something if we 
don't address it now it is going to be a huge problem later. So 
roughly 50 percent--just slightly less than 50 percent of our 
single sailor housing is inadequate right now. And the pace in 
which we are recapitalizing and building new facilities is in 
no way keeping up with what is necessary.
    I just think we have to really take a hard look at this and 
what we are going to do in the future, because otherwise we are 
going to wake up and we are going to have a bill that will be 
impossible to pay. And I would submit that that is probably 
going on with all of the services to one level or another.
    Mr. Jolly. Yes.
    Master Chief Stevens. We have been moving money out of our 
shore infrastructure to our operational accounts out of 
necessity, and if we continue to do that we are going to be 
hurting. And these shore infrastructures play a vital role to 
our operational readiness. It may not be the alligator closest 
to the canoe, but it certainly plays a vital role, so we need 
to take a hard look at that in the future.
    Mr. Jolly. So 50 percent inadequate. Describe in 30 seconds 
``inadequate.'' Convey to us what designates single sailor 
housing as inadequate.
    Master Chief Stevens. Well, so DoD's goal is that 90 
percent of all the housing--and I forget the day; I think it is 
2018--but 90 percent of all the single sailor--all the single 
service member housing should be at 80 percent on a scale from 
0 to 100 percent. And so right now 50 percent of our housing is 
below that 80 percent.
    We used to do it differently. I am not sure why they 
changed it. I think it is kind of semantics, but we used to do 
it in a condition of readiness, and one and two were considered 
to be, you know livable, and three was kind of livable, and 
four was inhabitable.
    So I would say that, you know, probably 70 percent or below 
you are getting close to the inhabitable level. So we are 
nowhere near where we need to be right now.
    Mr. Jolly. All right. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Dent. Thank you.
    And at this time I would recognize Mr. Price for 2.5 
minutes.
    Mr. Price. Thank you, Mr. Chairman.
    Sergeant Major, in using an illustration from the Army I am 
not just focusing on the Army nor am I asking you to comment on 
the specific case, but I think to ask this question quickly I 
can use an illustration from Fort Bragg.
    There have in recent years been very promising discussions 
about the way that the plans of the Army--the housing plans, 
the educational plans--might dovetail with some of the needs of 
the local community. There has, for example, been a focus on 
possible infill housing as opposed to just going farther and 
farther out into adjacent counties. That would obviously have a 
great impact on the city of Fayetteville, as well as meet the 
Army's needs.
    There has been a good bit of talk about the secondary 
education needs and the way that--those objectives might come 
together. I have to say that with the proposed drawdown and 
with the budget uncertainty, those discussions have also taken 
on an air of uncertainty and have been pushed into a more 
distant future.

                                DRAWDOWN

    I raised that just to raise the broader question of that 
level of community cooperation and synergy with respect to 
military installations. I wonder if you have anything to report 
about, particularly creative examples of how this has worked. 
And I wonder here, too, about the consequences--perhaps 
unintended consequences--of the drawdown.
    Sergeant Major Dailey. Congressman Price, I think I can 
represent my fellow service members well, as we have taken a 
large chunk of the drawdown in our active force, which, as you 
know, major installations across our Army are not just 
installations; they are members of the community. And we like 
to think that way because my family was raised by them little 
hometown Americas outside those Army gates. We have many 
families that live and work out there.
    As you know, as we draw down the Army to historic lows, as 
I have mentioned before, this doesn't just affect our 
readiness; it affects the American people in many ways. And we 
always want to partner with our community because you want them 
to feel like that is their Army base.
    For security reasons we have had to close our gates and 
heighten security, and that is a necessity for the safety of 
our soldiers and our family members. But it is a toll.
    It is a toll we feel from our partners outside our gates. 
We hear it all the time. It is a huge concern, as you know, and 
it is something that I think we are going to have to continue 
to contend with in the future.
    Hopefully we won't have to make further cuts and further 
decisions. But I can tell you firsthand, to answer your 
question, we hear of great concern from our communities outside 
our gates.
    Mr. Price. I am not sure I am understanding your answer. I 
believe these security concerns, and--but I am asking about 
these joint planning and exercises with local communities, and 
in particular the kind of synergy we have begun to see with 
respect to housing and education decisions.
    Sergeant Major Dailey. Sir, I don't have the specifics on 
any joint ventures outside of our installations. Of course, I 
could take that for the record.
    [The information follows:]

    Service members, Family, and Soldiers for Life are integral members 
of their communities. Formalized in the Community Covenant, the 
initiative is a commitment designed to foster and sustain effective 
state and community partnerships with the Army to improve the quality 
of life for Soldiers and their Families. Mutual support helps to build 
Soldier and Family resilience, mutual understanding, and support. As a 
result, the Covenant improves military readiness and fosters a more 
pleasant environment.
    While the Community Covenant is an Army program, it extends to the 
other Military Services as well, recognizing that many community 
efforts support all Service Members and their Families regardless of 
their branch of service. Additionally, Army One Source employs a 
Community Support Coordinator, which provides local information, news, 
and links to resources that Soldiers and Families may require.
    For transitioning service members, the Soldier for Life program 
provides a formalized transition assistance program. The program not 
only provides necessary transition information, but also links those 
members with community organizations to ease the process. In this way, 
a transitioning Soldier can begin networking with employers and 
organizations in his/her civilian community which reduces the stress 
associated with separation. As a result, Soldiers for Life can 
immediately make a positive impact on local communities.
    Many states have partnered with the local communities to assist 
National Guard and Reserve Members, their Families, and Soldiers for 
Life. In this way, various community and benevolent organizations are 
brought together and offer a repository of information and points of 
contact that are easily accessible for those seeking assistance 
(schooling, mental health services, etc.). Many National Guard 
headquarters have also reached out to build partnerships with their 
local communities to ease transition and link members and Families with 
assistance.
    At the local installation level, Garrison Commanders and staffs 
partner with local communities to ensure mutual understanding and 
support. Through outreach events, town hall meetings, ``Adopt a 
Community'' initiatives, and meeting with local community leaders, the 
Army ensures that the concerns and needs of all stakeholders are taken 
into consideration. For instance, many installations have signed 
Memoranda of Agreement to assist with emergency services, emergency 
medical treatment, and schooling. Other initiatives have resulted in 
support and funding to feeder schools in the local community, 
infrastructure repair and improvements, etc.

    Chief Master Sergeant Cody. I could offer up a little bit. 
We are certainly doing it with some of the charter schools and 
are allowing those schools to be built on our installations. 
This is good for the members that live on the installations or 
in the immediate community, and it is also good for the 
community because children from those communities are able to 
attend those schools to fill them out.
    We are also doing some ventures where--I use Nellis, just 
as an example, in Las Vegas, where the community actually built 
our gym there because it was something we were not going to be 
able to get within the budget and be able to sustain. They 
built that gym for us that helped with, no kidding, not just 
the military men and women but the civilians that live in the 
communities that work on the installation. And they were able 
to do that and then turn that over to the Department of 
Defense.
    There are certainly some synergies taking place and doing 
just what you say: building housing communities close to the 
base at fixed cost, right? They are targeted at certain 
demographics of income, so they let that income of military 
members reside there as well as the local populous, so it is a 
dual kind of thing.
    So there is a lot of effort there. We call it a P4 
initiative in the Air Force, or these private-private-private 
public type of things. So I think there is a lot of growth 
potential and help to support both the local communities as 
well as the military.
    Mr. Price. Thank you.
    Thank you, Mr. Chairman.
    Mr. Dent. Thank you.
    At this time I am going to recognize Mr. Joyce, for 2.5 
minutes.

                          QUALITY MEDICAL CARE

    Mr. Joyce. Thank you, Mr. Chairman.
    Recognizing that access to quality medical care is an 
important objective, we certainly hear a lot about it on the 
V.A. side, how accessible is quality medical care in the 
different services, and what are we doing to make sure that our 
service members are receiving the highest-quality care?
    One could answer for all or all could answer for one, 
however you want to address it, but it is sort of an open-ended 
question.
    Chief Master Sergeant Cody. I think we provide tremendously 
great health care to our military members. That doesn't mean it 
is not challenging to get the type of care they need, depending 
on where you are at.
    If we have military treatment facilities nearby with the 
right type of resources, that is obviously a better scenario 
for our military members and families, but it applies to 
retirees also; it goes to the extended footprint of TRICARE, 
and then the limitations that are placed on the various TRICARE 
programs on how they can access this care.
    I would arguably say we do really good, but I think the 
demand signal is actually on the increase when you consider all 
the costs of war and the men and women that have served over 
the last 25 years that are leaving, and now some of that care 
is coming home to roost.
    I think there is a desire by all of the Services--and we 
put this in in the budget that we want to draw more care back 
to the military treatment facilities and less out into the 
networks, only because we need that for the readiness of those 
no-kidding medical care providers. We need them to be trained 
and ready to go and keep their skills up.
    But it is also important that we have good access and good 
ability to use a network and have referral capabilities and not 
make it so painful. It can be very difficult for family members 
to get the care that they need if it is not available or there 
is not room at a military treatment facility.
    Master Chief Stevens. I was going to--Congressman Joyce and 
Congressman Valadao--both of you bring up good points when it 
comes to military medicine. I think it is important that as we, 
as Chief Cody just mentioned, as we look at ways to save monies 
and reduce costs of military medicine that we don't overreach 
and start counting too much on the civilian sector both inside 
the states and really outside the states is where it really can 
become concerning, because it can impact readiness without 
really knowing about it until it is too late.
    You know, something happens and you need that capability 
and that capability doesn't exist because you have been using 
capabilities out in the economy for so long, to reconstitute 
that could be very difficult. So there is a balance.
    And I know that our professional medical folks in DoD are 
taking a close look at that, but I think it is something we all 
need to pay attention to.
    Sergeant Major Dailey. I believe it is critical because 
there have been recommendations, we know, about our medical 
care. And it is critical to state that I agree, we do need to 
fix access to care. I hear that as a concern from our soldiers 
and family members in many places that I travel.
    But also, we have to maintain our medical treatment 
facilities. It is a readiness issue for us and for all the 
services because that is where our doctors receive the critical 
skills they need to be able to fight and win. I mean, we are 
going to need that medical care forward, and they have to be 
able to practice that medicine back here. And our families 
benefit from that expert care.
    Mr. Joyce. Also, I believe Sergeant Major Green brought up 
the nurses having a problem with credentialing. I am the co-
chair of the Nursing Caucus and we are going to work on that 
for you, as well as other credentialing issues, going forward.
    Sergeant Major Green. All the credentialing, sir. 
Appreciate that, sir.
    Mr. Joyce. Thank you, Mr. Chairman. I am out of time.
    Mr. Farr. Can I comment on that, Mr. Chairman?
    Mr. Dent. Sure.
    Mr. Farr. What we are doing in our district right now--I 
hope the whole committee will come out and see--we are building 
the first joint clinic with DoD and V.A. And this committee 
ought to really pay attention to these because we are the only 
committee in Congress--the Senate doesn't have any--we are--we 
take care of soldiers from essentially cradle to the grave 
because we have all the veterans' authorities in this 
committee.
    And I think this jointness particularly between DoD and 
V.A. needs to be really pushed. But that clinic is the way we 
are going to get quality of care for everybody.
    Mr. Dent. Yes. It is a good point, Mr. Farr, that as we--I 
often talk about doing a better job integrating the veterans, 
and the veterans and the civilian health systems; we also have 
to talk about doing a better job integrating the veterans and 
the DoD health systems.
    Mr. Joyce. Mr. Chairman, I will second Mr. Farr's motion 
that we should do that as a group.
    Mr. Farr. That was such a motion. [Laughter.]
    Mr. Dent. Well, we are the Appropriations Committee. It is 
not always our role to set policy, although we would like to 
from time to time.
    At this time I would like to recognize Mr. Fortenberry, for 
2.5 minutes, and sounds like we have a few-minute reprieve on 
the vote.
    Oh, there it goes.
    Go ahead. So go ahead. We are good.
    Mr. Fortenberry. I will hurry.
    Nobody told me it wasn't our job to set policy.
    Mr. Dent. Set policy from the authorizing committees; a 
little less from the Appropriations Committee. We all set 
policy.
    Mr. Fortenberry. So, gentlemen, I gave you a quick list of 
things. Perhaps you can look at the issue of the TRICARE 
question that I talked about, get back to us, just in a cursory 
manner, just as an initial blush.
    Two other things, though. The potential expansion of 
commissary benefits to benefits, maybe those who are disabled. 
I have proposed this. It gets hung up here and there. I want to 
put that back on the table.
    I also have another bill that I want you to consider and 
potentially help with. It is called the Veterans Transitional--
Entrepreneurial Transition Act, and what this does, it creates 
a pilot program whereby veterans who are prepared, because of 
their skill sets that they have obtained in the military, who 
are not in a position or do not need to use G.I. benefits for 
college--because the original intent of the G.I. Bill is 
transition, and that generally is interpreted as higher 
education.
    But there are a lot of--or potentially a lot of members of 
the military who have a sufficient set of skills that could 
move directly into small business on their own. This would 
provide a pilot project to see how the government could 
facilitate the upfront capital cost and, again, expand the 
number of veterans who are able to leverage their G.I. Bill 
benefits, and many do not.
    So I propose that to you. I have talked to numerous 
veterans' groups about this. We continue to sensitize everyone 
to the potential here, and we have gotten a lot of great 
feedback. One exception, but we are still working on that.
    I would like you to, again, in your analysis and thinking, 
see how this would integrate successfully starting with pilot 
programs where we would test it to make sure that this is 
functional. So that is what I had.
    And again, thank you for your service.
    Mr. Dent. Well, this concludes this morning's hearing.
    I would like to remind all members that our next hearing is 
going to be on March 2 at 9:30 a.m. in 2359 Rayburn with the 
secretary of veterans' affairs, Bob McDonald.
    So thank you all for your testimony. Appreciate it. And I 
think we want to do some pictures.
    So this meeting is adjourned.
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         
    
   
    
    
    

                                           Thursday, March 3, 2016.

              INSTALLATIONS, ENVIRONMENT, ENERGY AND BRAC

                               WITNESSES

PETE POTOCHNEY, PERFORMING THE DUTIES OF ASSISTANT SECRETARY OF 
    DEFENSE, ENERGY, INSTALLATIONS AND ENVIRONMENT
KATHERINE G. HAMMACK ASSISTANT SERETARY OF THE ARMY INSTALLATIONS, 
    ENERGY AND ENVIRONMENT
DENNIS V. McGINN ASSISTANT SECRETARY OF THE NAVY ENERGY, INSTALLATIONS 
    AND ENVIRONMENT
MIRANDA A. A. BALLENTINE ASSISTANT SECRETARY OF THE AIR FORCE 
    INSTALLATIONS, ENVIRONMENT AND ENERGY

                       Chairman Opening Statement

    Mr. Dent [presiding]. Good morning. I would like to welcome 
everybody and bring this hearing of the House Appropriations 
Subcommittee on Military Construction and Veterans Affairs to 
order.
    And again, I welcome everyone to this morning's hearing on 
installations, environment, energy and BRAC fiscal year 2017.
    We have many questions to address concerning the 2017 
budget request.
    It is notable that the military construction budget is down 
by more than 10 percent in fiscal year 2016 enacted levels. The 
budget request shows that combatant commanders' priorities and 
new mission sets were taken care of. But that seems to be at 
the expense of the services' basic needs.
    Projects planned in the future years' defense program for 
fiscal year 2017 dropped out. The impact of the Balanced Budget 
Act is still being felt as services attempt to include funding 
to restore projects that were cut to include quality of life 
projects.
    We want to discuss how force structure changes will affect 
the military construction budget in fiscal year 2017 and 
beyond.
    Another high-profile issue is the European Reassurance 
Initiative which our allies are very interested in. And the 
fiscal year 2017 budget request includes $113.6 million for 
seven countries. Some of us did visit Europe this past summer 
and talked quite a bit about the European Reassurance 
Initiative.
    Last, we all have a keen interest in managing our 
facilities better in terms of requirements versus capacity, 
both overseas and in the U.S.
    The panel before us today has a lot of answers to these 
questions I am sure. But before I introduce our witnesses, I 
would like to turn to the Ranking Member, Mr. Bishop, for any 
opening remarks he might like to offer at this time.
    Mr. Bishop.

                    Ranking Member Opening Statement

    Mr. Bishop. Thank you very much, Mr. Chairman.
    And let me welcome all of our distinguished witnesses. I am 
glad that today we are going to be able to talk about the 
President's 2017 military construction budget request and we 
have the civilian leadership that can explain the priorities 
for military construction in each of the services.
    The folks before us have dealt with some big issues over 
the past few years. You have all dealt with sequestration and 
you all have dealt with the budget caps mandated by the Budget 
Control Act. And you are once again functioning under another 
budget compromise passed by this body last year, at least 
hopefully we will be functioning under that.
    I think each of you have done a great job in prioritizing 
the needs of your respective services and doing what is best 
for the warfighter. Each of your services has elected to invest 
in critical infrastructure and the needs of combatant 
commanders and the warfighter, as opposed to quality-of-life 
facilities.
    In fact, I am concerned that we are basically seeing 
quality-of-life projects disappear as you are forced to focus 
on other needs.
    Mr. Chairman, I remember saying 2 years ago that the Army's 
budget request was the lowest I had ever seen. Now fast-
forwarding to the 2017 request, this budget is the lowest I 
have ever seen.
    Changing gears on another subject equally important is the 
DOD request to conduct another BRAC round in 2019.
    In 2005, Congress authorized a BRAC that ended up being far 
more expensive and expansive than we had been led to believe. 
And I understand in 2004 it was known that the department had 
24 percent excess capacity. But in the 2005 BRAC, defense made 
reductions of only 3.4 percent.
    I understand that the 2005 BRAC was a reshaping BRAC, but a 
lot of money was spent to move things and, most importantly, 
move people. So I have concerns regarding another round of 
BRAC, but I also have concerns about maintaining infrastructure 
that we don't need, because those dollars could go to more 
pressing needs.
    So Mr. Chairman, I realize that these are very, very 
difficult issues for all of the members of Congress.
    And with that said, I am glad for today's hearing so we can 
discuss these issues openly. And I look forward to a very 
vigorous discussion.
    So thank you for the opportunity to share my concerns. And 
I yield back.
    Mr. Dent. Thank you, Mr. Bishop.
    Now I would like to introduce our witnesses. And before I 
do, I believe we are going to vote somewhere between 9:50 and 
10:05, and so we will have to break briefly for that. I don't 
know how many votes we have. Just one vote? Well, then we can 
do it quickly and come back. So it shouldn't be a long delay.
    So our witnesses, the honorable Pete Potochney, acting 
assistant secretary of defense for energy, installations and 
environment; the honorable Katherine Hammack, assistant 
secretary of the Army for installations, energy and 
environment; the honorable Dennis McGinn, assistant secretary 
of the Navy for energy, installations and environment; and Ms. 
Miranda Ballentine, assistant secretary of the Air Force, 
installations, environment and energy.
    Thank you again for taking the time to be here and sharing 
your perspectives and expertise.
    Without objection, your written comments and statements 
will be entered in the official record. Due to the number of 
witnesses, I would ask that each of you summarize your 
statement in about 5 minutes so that that can maximize the 
amount of time for dialogue and questions between the panel and 
the subcommittee members.
    So with that, we welcome you. So I guess we will go from 
right to left, we will start with Mr. Potochney.

                    Mr. Potochney Opening Statement

    Mr. Potochney. Chairman Dent, Ranking Member Bishop and 
distinguished members of the subcommittee, I appreciate the 
opportunity to be here and the honor to be here as well.
    By way of introduction, I am Pete Potochney, I am currently 
the deputy assistant secretary for basing and I am performing 
the duties of the assistant secretary for energy, installations 
and environment.
    I appreciate my statement being in the record, and I will 
summarize it very quickly.
    And my summary is essentially what you, Mr. Chairman, and 
Ranking Member Bishop just said. We are in a budget dilemma. We 
are making tough choices. We need BRAC in order to make those 
choices a little bit easier so that we are not spending money 
and resources better spent on our facilities that we do need 
and on readiness.
    And I don't know what much more I could say about that. I 
think you all recognize the situation we are in and we surely 
do.
    Regarding the next BRAC round, the last one was expensive. 
The transformation focus of it did require that we spend a lot 
more money than we would otherwise. There is benefit in that.
    BRAC is a recapitalization engine, to a certain extent; 
however, the focus of the next round will certainly be on 
reducing excess capacity and that is what we are after.
    And so if Congress does give us the authority for BRAC, we 
will be asking for a 2019 round. This is the fifth time we are 
asking, I think we can use it in a way that Congress would be 
satisfied.
    However, in recognition of the concerns that you all have, 
we do want to enter into a dialogue about that request. I think 
we all appreciate that the BRAC process works. It is effective, 
it is fair, it is transparent, so we don't want to do any harm 
to it. But if there are changes necessary, we would certainly 
like to talk to you about it.
    And having said all that, that concludes my remarks. Thank 
you.
    [The information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         
    
    
    
                     Ms. Hammack Opening Statement

    Ms. Hammack. Good morning, Chairman Dent and Ranking Member 
Bishop and other members of the subcommittee. Thank you for the 
opportunity to discuss the Army's fiscal year 2017 budget 
request.
    As you mentioned, our budget request is the lowest for the 
Army since 1993. The focus has been on combatant commanders' 
top priorities, as well as new directed missions, such as cyber 
or unmanned aerial vehicle support.
    Our MILCON budget does include a request for $233 million 
for the National Guard. And that supports recapitalization of 
readiness centers.
    And according to the Readiness Center Transformation Master 
Plan, which was requested by the Senate Armed Services 
Committee, the readiness centers are experiencing critical 
shortfalls. Our 17 request for the National Guard is a step 
toward addressing those shortfalls, but does not come close to 
meeting their entire request to recapitalize within the next 15 
years.
    At the request of Congress, the National Commission on the 
Future of the Army also issued a report last year, and it 
includes recommendations on how the Army can free up funding 
for warfighting needs.
    The Commission specifically recommended, and I quote: ``the 
Congress and the administration should look for cost-savings 
opportunities in areas such as energy savings and a reduced 
inventory of military facilities.''
    So with the planned reduction in Army active duty forces to 
450,000 by fiscal year 2018, the Army will have an excess 
capacity averaging 21 percent. If budget caps remain in place, 
the Army will need to further reduce the number of Soldiers, 
and our excess capacity will only increase.
    The Army's budget request reflects our decision to continue 
to take risks in installation readiness to focus our financial 
needs on Soldier readiness. The risk we are taking in 
sustainment results in an accumulation of deferred maintenance.
    The Army needs authorization to optimize installation 
capacity and free up funds for critical military needs.
    Last week, the Acting Secretary and Chief of Staff of the 
Army testified before the Senate Appropriations Committee that 
the Army must have a round of Base Realignment and Closure 
authorized in fiscal year 2017. BRAC is a proven, cost-
effective means to reduce excess infrastructure.
    Without a BRAC, the Army continues to spend scarce 
resources to maintain unneeded infrastructure, hurting our 
highest military-value installations. This is an unacceptable 
result for the Army and a disservice to American taxpayers.
    I look forward to working with you to shape the next round 
of BRAC.
    The Army's request supports efforts to implement energy 
cost savings and strengthen energy security on our 
installations. We are leading the federal government by 
implementing energy savings performance contracts. And since 
2003, the Army has reduced our overall energy consumption by 
over 22 percent.
    Working with the private sector, we are increasing 
renewable energy projects, which we estimate will generate over 
$250 million in cost avoidance over the life of the projects.
    The Army manages 12 million acres of land on which more 
than 200 endangered species reside. There are many historic 
preservation requirements and land restoration needs. Our 
fiscal year 2017 environmental budget request of $1.05 billion 
enables the Army to manage these areas while meeting our 
cleanup requirements. This is critical to maintaining access to 
testing and training lands.
    The Army's top priority continues to be readiness. To meet 
our mission requirements, your Army requires ready and 
resilient installations to serve as platforms for readiness for 
our soldiers.
    I look forward to continuing to work with you to ensure 
they have the critical resources to defend the homeland.
    Thank you for the opportunity to appear before you today 
and for your continued support of Army soldiers, families and 
civilians. I look forward to the opportunity to answer your 
questions.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         
    
   
    
                      Mr. McGinn Opening Statement

    Mr. Dent. Thank you.
    Mr. McGinn.
    Mr. McGinn. Mr. Chairman, Ranking Member Bishop, members of 
the subcommittee, I am pleased to appear before you today to 
provide an overview of the Department of the Navy's investment 
in its infrastructure, energy and environmental programs.
    Navy and Marine Corps installations and facilities are the 
platform to train and prepare our marines and sailors to deploy 
ships, aircraft and operational forces and to support our 
military families.
    The infrastructure portfolio is vital to our operational 
forces and has a plant replacement value of nearly $230 
billion. Of that, over $170 billion is for Navy and $56 billion 
is Marine Corps.
    I am confident that our very capable team works every day 
to efficiently manage this portfolio that enables that 
operational readiness.
    We thank Congress for passing the Bipartisan Budget Act of 
2015, the National Defense Authorization Act for fiscal year 
2016, and the Consolidated Appropriations Act of 2016.
    In fiscal year 2017, the President's budget is requesting 
$11.9 billion, a 10.4 decrease from amounts appropriated in 
this fiscal year, to operate, maintain and recapitalize our 
infrastructures for installation.
    The Department's MILCON program request will invest $1.13 
billion worldwide to support warfighting and modernization of 
our utilities and critical infrastructure. We appreciate 
congressional support of two additional MILCON projects for our 
Marine Corps last year.
    We continue to rely on the private sector as the primary 
source of family housing for our sailors, marines and families. 
Over 62,000 Navy and Marine Corps family housing units have 
been privatized through the Military Housing Privatization 
Initiative, and we are pleased with the continued high levels 
of satisfaction that are reported.
    To maximize support for warfighting readiness and 
capabilities, the President's fiscal year 2017 budget request 
continues to carefully accept risk in facility sustainment, 
restoration and modernization. In the fiscal year 2017 budget, 
the request is $1.9 billion to sustain infrastructure, which is 
a 16 percent reduction from last year.
    Navy and the Marine Corps have resourced fiscal year 2017 
facility sustainment at 70 percent and 74 percent, 
respectively, of the Department of Defense's facilities 
sustainment model. I will note, though, over time and if 
continued, this lack of sustainment will cause our facilities 
to deteriorate.
    The fiscal year 2017 base operations support request of 
$7.6 billion is comparable to fiscal year 2016. Due to overall 
budget constraints, base operations at Navy and Marine Corps 
installations are funded to the minimum acceptable standards 
necessary to continue mission-essential services.
    We accept low service levels for most installation 
functions in order to maintain our commitment to warfighting 
readiness and operations, security and family support programs 
and child development.
    The Department is committed to environmental compliance, 
stewardship and responsible fiscal management that support 
mission readiness and sustainability, investing over $1 billion 
to achieve our statutory and stewardship goals.
    The Navy energy program has two central goals: enhancing 
Navy and Marine Corps combat capabilities, and advancing energy 
security afloat and ashore. Partnering with other government 
agencies, academia and the private sector, we strive to meet 
these goals with the same spirit of innovation that has marked 
our history, new ideas delivering new capabilities in the face 
of new threats.
    Our Naval forces offer us the capability to provide power 
and presence, to deter potential conflicts, to keep conflicts 
from escalating when they do happen, and to take the fight to 
our adversaries when necessary. Presence means being in the 
right place, not just at the right time, but all the time. And 
energy is key to achieving that objective.
    Using energy more efficiently allows us to go where we are 
needed, when we are needed, stay there and deliver more 
firepower when needed.
    The Department of the Navy, in conclusion, continues to 
carefully and deliberately manage our portfolio to optimize 
mission readiness and to improve quality of life. The 
Department's fiscal year 2017 request makes needed investments 
in our infrastructure and people, preserves access to training 
ranges and promotes environmentally prudent and safe actions 
while ensuring energy resilience and security.
    Thank you, Mr. Chairman and Ranking Member Bishop, for the 
opportunity to testify before you today.
    [The information follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         
    
    
    Mr. Dent. Thank you, Mr. McGinn.
    Ms. Ballentine.

                    Ms. Ballentine Opening Statement

    Ms. Ballentine. Good morning. Chairman Dent, Ranking Member 
Bishop and esteemed members of the subcommittee, it is a true 
honor to be able to represent America's Airmen, before you 
today.
    You will have to excuse my voice. I have a little bit of a 
cold.
    The bottom line is that the Air Force's installations are 
too big, too old and too expensive to operate. Twenty-four 
years of continuous combat and a, constrained fiscal 
environment really have taken their toll.
    In order to afford other Air Force priorities, our total 
fiscal year 2017 PB facilities request this year at $8.3 
billion is 4 percent lower than last year's request. That 
includes MILCON, Facility Sustainment, Restoration and 
Modernization, housing, BRAC and environmental programs.
    We have prioritized MILCON over FSRM in fiscal year 2017, 
requesting $1.8 billion in MILCON, that's actually a 14 percent 
increase over last year, and $2.9 billion in FSRM, that is down 
about 10 percent compared to last year.
    I expect our backlog of degraded facility requirements to 
grow.
    Our MILCON program is three-tiered, as you noted in your 
opening statements. First, we are ensuring that we are 
supporting all of the combatant commanders' military 
construction requests. That is about 16 percent of our budget. 
Second, about 34 percent of our budget ensures that we have the 
infrastructure for beddown of new weapons systems as they come 
online. Third, about 40 percent of our MILCON budget allows us 
to begin to chip away at the very significant backlog of 
existing mission infrastructure recapitalization needs.
    Of the more than 500 top-priority projects submitted by our 
major command commanders this year, we were only able to fund 
about 30.
    Finally, the Air Force needs another round of Base 
Realignment and Closure. We simply must align our 
infrastructure to our operational needs. The Air Force has 
about 30 percent excess infrastructure capacity. Since BRAC 
2005, the Air Force has thousands fewer personnel and hundreds 
fewer aircraft, yet we have not closed a single installation in 
the United States.
    Since the Gulf War, we have reduced combat-coded fighter 
squadrons from 134 to 55. That is a nearly 60 percent 
reduction. Yet all BRACs in that time period have only reduced 
U.S. bases by about 15 percent.
    BRAC is not easy, and Congress has expressed three very 
specific concerns that really come down to community impact, 
cost and future mission needs. I would like to address each 
very briefly from the Air Force perspective.
    First, communities. Air Force communities are some of our 
greatest partners and supporters. These communities are full of 
our neighbors and our friends. The Association of Defense 
Communities recently asked community leaders what they thought 
about BRAC, and 92 percent of those community leaders said that 
the status quo of hollowed-out bases, reduced manning and 
minimal investment is worse for their communities than BRAC.
    Without BRAC, the Air Force will be forced to continue to 
spread out our Airmen and our aircraft. And many communities 
will continue to suffer from the economic detriment of 
hollowed-out bases without the economic support that only BRAC 
legislation allows.
    Second, cost. Congress rightly wants to ensure that the 
savings of BRAC justify the costs. And we agree. And simply 
put, the results of previous BRAC efforts for the Air Force are 
really staggering.
    Previous rounds of BRAC combined saved the Air Force $2.9 
billion each and every year. In other words, the President's 
Budget request for this year would be almost $3 billion higher 
without the divestitures from prior BRAC rounds. And for the 
Air Force, they have had good returns on investment.
    Third, future mission needs. Some have questioned the 
wisdom of right-sizing infrastructure to our current force 
structure. And we have no intent to close infrastructure that 
may support future needs, and the analysis will be based on our 
military leaders' best judgment.
    Through five previous rounds of BRAC and numerous force 
structure changes, we have never dipped below 20 percent excess 
infrastructure capacity. We have always left and we always will 
leave room for future maneuvering.
    While only BRAC brings substantial savings, the Air Force 
also leverages innovation wherever possible. Our community 
partnership programs, which many of your communities 
participate in, build win-win partnerships. Enhanced-use leases 
and power purchase agreements save us money and give new life 
to underutilized real estate. We look holistically wherever we 
can.
    In closing, the Air Force had to make hard, strategic 
choices during the formulation of this budget request, 
attempting to strike a balance between the ready force for 
today, the modern force for tomorrow, recovering from 
sequestration and adjusting to budget restrictions. And we 
believe it is the right way ahead.
    Chairman Dent, Ranking Member Bishop and esteemed members 
of the committee, I ask for your full support of the Air 
Force's 2017 request. And I look forward to taking your 
questions.
    [The information follows:]
    
    
   
    
    Mr. Dent. Thank you.
    I guess we will start with Mr. Potochney.

                      MILITARY CONSTRUCTION BUDGET

    The Department of Defense 2017 budget propose $7.4 billion 
for military construction and family housing. The request is 
$1.1 billion or 12 percent below the 2016 enacted level. The 
majority of the decrease is in military construction accounts, 
specifically $160 million decrease in Army construction, $642 
million decrease in Navy and Marine Corps construction, $187 
million decrease in Defense-Wide construction.
    Can you explain to the committee how the department 
determined what projects or accounts were to be reduced and at 
what risk to other mission-critical requirements?
    Mr. Potochney. When our budgets go down, we have to make 
the tough choices. This budget focused, as most of them do, as 
they all do frankly, on mission beddowns, operations, health 
and safety, quality of life.
    And then within that framework at the trade-offs that 
people at this table and our uniformed leaders have to make in 
balancing how to allocate resources within that kind of a 
framework.
    I don't know how else to do it and that is how we have been 
doing it. And I think the process we use, the best way to 
characterize it is, at least I would like to think of it this 
way, is it is informed decision-making. But it provides the 
services flexibility to deal with those individual dynamics.
    I don't know if that answers your question, but I have to 
answer it in a general way because they can tell you the 
specifics.

                              FSRM FUNDING

    Mr. Dent. Yes. I guess anybody can chime in on this. But 
what areas do you--maybe any one of you can chime in--but what 
areas do you see the most risk with decreases in military 
construction budgets and the reductions to facilities, 
sustainment, restoration and modernization? Can anybody----
    Ms. Hammack. I would say that the biggest risk that the 
Army is taking is in replacing our current infrastructure. We 
have over 52,000 buildings in poor or failing condition right 
now. The majority of our budget is focused on combatant 
commander requirements and new missions, which for us is cyber 
or unmanned aerial aircraft.
    What that does not get after is a significant number of 
existing buildings out there that are failing. That is the 
biggest challenge that we are facing in the Army.
    Mr. McGinn. I would concur with Secretary Hammack. Our 
program MILCON F-35, P-8, new-ship deployment and home porting, 
is in pretty decent shape. However, for other existing 
installation structures, that is where we are taking risks in 
MILCON.
    Ms. Ballentine. Likewise for the Air Force. We have 
prioritized MILCON in our budget this year, allowing us to get 
after some of those mission critical, worst-case, existing-
mission infrastructure.
    But as I said, the backlog is very significant and we are 
only able to fund about 30 of the 500 top-priority projects 
that our MAJCOM commanders have submitted.
    We really are in a position of it is not a question of 
whether infrastructure is going to fail, it is what is going to 
fail and when. And we have a very robust, sophisticated process 
to try to optimize the mission-critical, worst-case first, but 
it is hard without a crystal ball to know exactly what is going 
to happen.
    Mr. Dent. Thank you. And is there an ability for the 
department to catch up or restore reductions in military 
construction due to sequestration or reduced budget levels in 
the out years? Anybody want to take a stab at that one?
    Ms. Hammack. Chairman Dent, I welcome that question because 
the ability to catch up is called BRAC. The ability to catch up 
is the ability for us to close those facilities that have least 
military value so that we can focus our funds, focus our 
military construction, focus our sustainment on our most 
critical facilities.
    Mr. Dent. Well, I got the message, it is all about BRAC. 
[Laughter.]
    On European Infrastructure Consolidation, in your 
statement, Mr. Potochney, I think you mention, after a one-time 
investment of approximately $800 million of military 
construction to implement two major base closures, eight minor 
site closures and 16 realignment actions, does the $800 million 
include the military construction projects requested for 
Germany in fiscal year 2017?
    Mr. Potochney. That is right.
    Mr. Dent. OK. And is there a corresponding operation and 
maintenance figure as well?
    Mr. Potochney. Yes. Well, the total investment is 1.4 
billion and almost $800 million of that was MILCON. But that is 
over the whole implementation of EIC, European Infrastructure 
Consolidation.
    Mr. Dent. Thank you. And one other question, Mr. Potochney. 
In light of Russia's resurgent aggressiveness in Eastern 
Europe, there has been a growing concern amongst our allies 
about the risk of Russia utilizing its energy supplies as a 
strategic and political weapon. And we have all seen that with 
respect to the Baltics, especially in Poland. And I certainly 
share these concerns, as do a number of my colleagues.
    Is this risk being taken into consideration as DoD 
continues to develop and assess the energy plans for our U.S. 
installations and new military construction projects that are 
based within the European continent?

                 EUROPEAN INFRASTRUCTURE CONSOLIDATION

    Mr. Potochney. I believe so. Relating to the question of 
what we have done to reduce our European infrastructure in 
general is, is we were really careful to make sure that our 
excess capacity is that capacity above what we need for current 
operations plus surge. And fuel considerations are included in 
that.
    We also looked pretty carefully at OPLAN requirements and 
that is part of our contingency requirements to make sure that 
something that maybe isn't being used now is considered within 
that surge category. And again, that includes fuel issues.

                        ENERGY SECURITY OPTIONS

    Mr. Dent. And this is my final, quick comment, and then I 
am going to go to Mr. Bishop.
    And are more energy security options, including U.S. 
sources, being considered in any of this analysis that you have 
done?
    Mr. Potochney. Yes, I believe so. Yes. I can get you 
something more for the record if you would like.
    [The information follows:]

    Related to the threat of Russian manipulation of natural 
gas on our installations in Europe, my office has issued a 
policy to require installation energy plans (IEP) for every 
base. These plans provide a structured approach to selecting, 
prioritizing, sequencing and implementing energy projects and 
programs that ultimately results in improved long-term energy 
performance and energy resilience.
    Separate from energy used to heat and power installations, 
the Department is working to ensure the joint air and land 
forces have the appropriate petroleum and refined product 
infrastructure needed to meet NATO mission requirements in 
Eastern Europe. For instance, the Department is partnering with 
NATO to improve deployable bulk fuel storage and distribution, 
aerial refueling, and pipeline capabilities. Similarly, the 
Department is reviewing plans and concepts of operation for 
supporting operations in a rapidly evolving theater. Together, 
these initiatives will ensure that U.S. military forces have 
the fuel needed to meet ongoing and future requirements in 
support of our NATO allies.

    Mr. Dent. Thank you.
    At this time I would like to recognize the ranking member, 
Mr. Bishop.
    Mr. Bishop. Mr. Chairman, Mr. Farr is ranking on the 
subcommittee that will be meeting in just a few minutes. I 
would like to, with your permission, defer and allow him to 
pursue his questions first and then I will come back on the 
next round.
    Mr. Dent. Without objection, I recognize Mr. Farr.
    Mr. Farr. Thank you very much, Mr. Bishop, for doing that. 
I am sorry I am going to have to cut out.
    I am just going to give you my 2 cents' worth. And all I 
need as a response to all these questions is yes. [Laughter.]
    First is just a suggestion. I am probably more BRAC 
knowledgeable than almost any member of Congress because I have 
been so BRAC'd and the largest military base ever closed, 
threats of closing the Naval Post Grad School, Defense 
Language, BRAC'ing Fort Hunter Liggett. And I have been through 
that process. I have been 22 years in Congress and there isn't 
a day that goes by that I don't deal with BRAC issues.
    And I have converted myself from being totally against BRAC 
to, even though I have been, you know, the victim of BRAC, I 
think it is absolutely--I agree with you.
    But just a suggestion. Why don't you combine an ad hoc 
committee of staff members and your folks to look at the 
language in which you bring it up? You always give the same 
language in your request for BRAC. And you know, Congress just 
rejects it.
    And I think if you presented it in a different way, in a 
very smarter ask, you might have a different reaction. And I 
just suggest you use your--we have got a lot of technical 
people here that could help you with that. That might take some 
of the politics out of it.
    Ms. Hammack. You are going to get a yes to that one, sir. 
[Laughter.]

                      MONTEREY MODEL AND AGREEMENT

    Mr. Farr. OK. And I want to ask you, Ms. Hammack, about 
this Monterey model. I think a lot of things, you know, you can 
really take what has happened here in Congress, we have created 
a Defense Community Caucus, we have got defense communities 
aware of what military bases are about and what they can do 
with the municipal agreement models. And we are created an 
Unexploded Ordnance Caucus. I am co-chair of both of those.
    And I think we--now we have got to go vote. We have got to 
do everything at once around here.
    With the Monterey model, could you commit to the new 
extension of the Army agreement with Monterey so that we can 
get that done and then get the year after that? It is just 
lingering and I would like you to do that as fast as possible.
    Ms. Hammack. To that you get another yes.
    Mr. Farr. Pardon me?
    Ms. Hammack. Yes, we will.
    Mr. Farr. Yes. Well, and also I just ask that you send 
Mark--your lawyer and Army Budget Director Paul Cramer out to 
Monterey to meet with Colonel Fellinger. I mean, he is facing a 
lot of these things and I just don't think, from watching the 
perspective, you see all the nuances of it. And I think you 
would write a much better contract if they were on the ground 
and could see that.
    The other is we have a provision in the law, I guess, that 
doesn't allow housing to be built on National Guard bases. We 
have created in Camp Roberts, which is right next to Fort 
Hunter Liggett, a SATCOM operation there. And the commander of 
SATCOM says, of the 14 installations around the world, this is 
the most vital one, geophysical one.
    It is a long way from any community around. It is in the 
boonies. And what we thought is that perhaps you could possibly 
be looking into the possibility of the geo-bachelor quarters 
that could be built there. And I just wondered if you could 
investigate that and let me know what the options might be 
available to provide some housing for that operational facility 
there so that they don't have to commute so far.
    And I know there are families and all those issues. But are 
there other options?
    And lastly before I go, because you have invested the money 
to create the state-of-the-art, probably the best in the United 
States, the shoot house, a whole village of where you can go in 
and practice attacks. It has got churches and it has got 
everything, you can turn that village into any kind of scene 
you want. All electronically wired and everything so you just 
put in the kind of background noises and languages that you 
want.

                    FUTURE YEAR PROJECTS PRIORITIES

    And now in the FYDP, to add near there, is a new automated, 
multipurpose machine gun range. And it is in the FYDP. And if I 
ask in a letter, I am violating the earmark thing. But if you 
ask when there is money left over at the end of the year that 
you would like that money to be spent on that range and move it 
up on the FYDP from 2020, it might be very cost-effective.
    Ms. Hammack. Sir, when we look at Army priorities, we 
address the failing first, we address COCOM Commanders' 
requirements, and we address new missions. We do our best to 
prioritize according to that model.
    So unfortunately, we quite often do not have funding to do 
more advanced----
    Mr. Farr. No, I am only suggesting at the end of the year 
there may be some leftover funds because contracts didn't get 
obligated and that ends up being a surplus. And they usually 
come to the committee and ask us what our priorities are.
    We now turn it back to you. And I am just suggesting, if 
there is an opportunity take a look at it.
    All right, my time is up. And I am 13 seconds over.
    Mr. Dent. That is pretty good for you, Mr. Farr. 
[Laughter.]
    That is pretty good.
    We have how much time on the clock? About 11 minutes. I 
think what we will do is we will recognize Mr. Jolly and then 
we will come back to the ranking member.
    We have three votes. It is not one vote.
    So Mr. Jolly, you are recognized for 5 minutes.
    Mr. Jolly. Thank you, Mr. Chairman. And I will try to keep 
it brief.

            UNAFFORDABLE TO MAINTAIN CURRENT INFRASTRUCTURE

    I have had the opportunity to talk with many of you. And I 
share your concerns. I don't understand why we are paying for 
cement we don't need when we have got warfighters who need to 
be better equipped. That is the bottom line. So I hope we can 
find a constructive way forward. Clearly, everybody is on the 
same page.
    But to the panel, I would say, though, Secretary 
Ballentine, you said something probably more blunt than anybody 
else in your written testimony. The Air Force simply cannot 
afford to maintain our current infrastructure footprint. Simply 
cannot afford it.
    Ms. Ballentine. Yes, sir.
    Mr. Jolly. What is the reality of that? What does that 
mean?
    Ms. Ballentine. Well, what it means is exactly what it 
says.
    Mr. Jolly. So what is the result of that, I suppose?
    Ms. Ballentine. We are doing our best to prioritize the 
mission-critical, worst-first, as Ms. Hammack said, so we are 
really going through each and every one of the projects that we 
know needs to happen, and there are thousands of them, 500 top 
priorities in this year alone, and really trying to prioritize 
which facilities are in the worst condition that really have to 
be recapitalized and are mission critical. And we try to 
prioritize those projects.
    We also try to prioritize the sustainment fund. That is 
kind of like changing the oil on your car.
    Mr. Jolly. Sure.
    Ms. Ballentine. If you don't prioritize the sustainment, 
you are going to create problems down the road. So we try to 
keep that as full as possible. Even this year, we are funding 
that only to 77 percent, which is lower than we have been.
    Mr. Jolly. And your written testimony states that Air Force 
excess capacity is 30 percent or will be 30 percent by fiscal 
year 2019. Is that right?
    Ms. Ballentine. It is about 30 percent excess 
infrastructure capacity. We have run the numbers a number of 
different ways, looking at various force structures. And it 
ranges anywhere from 28 to 32 depending on which force 
structure you use.
    Mr. Jolly. All right.
    Ms. Ballentine. So we round it out to about 30 percent.
    Mr. Jolly. Thank you.
    And Ms. Hammack, you used the term ``installation 
readiness.'' Is that referring to--what is the lay 
interpretation of installation readiness?

                         INSTALLATION READINESS

    Ms. Hammack. Installation readiness means that we support 
Soldiers so that they are ready to deploy. Installation 
readiness affects training land. Installation readiness affects 
the buildings that we use to do pre-deployment training. 
Installation readiness affects the energy that is available to 
ensure that we can deploy under a wide range of circumstances.
    Mr. Jolly. And that is where you have insufficient 
resources to address installation readiness needs?
    Ms. Hammack. We say there is a risk. As Secretary 
Ballentine said, we do our best to maintain those critical 
infrastructure first, but there is simply not enough money 
across the budget to maintain all the facilities that we have.
    Mr. Jolly. OK. And you and I had the opportunity to talk 
about some of the results of the European infrastructure 
consolidation. I know that was mentioned earlier. You have a 
little more flexibility in addressing overseas installations. 
Can you share some real-life examples of the success of that 
and why that might provide some encouragement for CONUS BRAC, 
if you will?
    Ms. Hammack. Yes, sir, and thank you for that question, 
Representative Jolly.
    You know, when we look at the European Infrastructure 
Consolidation for the Army, between our restoration and 
modernization funding and our MILCON funding through 2022, we 
are going to spend about $300 million.
    What we are going to return is $170 million in annual 
reoccurring savings, and that is less than a two-year return on 
investment. That means that we are returning to Germany those 
facilities that we no longer have a mission need for.
    What we are going to end up with is not zero excess 
infrastructure, but around 7 percent. Around 7 percent is where 
we think we can balance surge requirements, we can balance 
modification to mission requirements. That is what we would 
like to do in the United States.
    The Army right now is anywhere between 18 and 21 percent 
excess capacity. We will never get to zero, but there is plenty 
of room for us to reduce excess infrastructure, reduce those 
costs so that we can focus on more fighter requirements.

                 EUROPEAN INFRASTRUCTURE CONSOLIDATION

    Mr. Jolly. And the European infrastructure consolidation 
you would consider a successful construct, if you will?
    Ms. Hammack. Absolutely.
    Mr. Jolly. Do you have a comment as well, sir?
    Ms. Ballentine. Yes, I will chime in from the Air Force 
perspective where actually the bulk of the actions are. We have 
nine actions. It is going to cost us about $1.1 billion and we 
will save probably close to $300 million each and every year.
    But what is really key is the process worked. It worked 
very effectively. And we are not reducing our warfighting 
capabilities at all. We are just viewing it more effectively.
    Mr. Jolly. It is a good model.
    Ms. Ballentine. It is a good model.
    Mr. Jolly. All right, thank you.
    Mr. Potochney. I wonder if I could add to that, though. We 
are closing Mildenhall, that is huge in Europe. We would not be 
able to close a base here because we lack the authority to 
close bases.
    Mr. Jolly. Sure. We have about--how much time left?
    Thank you, Mr. Chairman. Thank you.
    Mr. Dent. Thank you, Mr. Jolly.
    We have 6\1/2\ minutes left in the vote.
    I am going to recognize Mr. Sanford. I recommend that all 
you go up to vote. I will stay as long as we can.
    So I would recognize Mr. Bishop for as long as he wants to 
speak. Thank you.
    Mr. Bishop. Thank you very much.

                            EXCESS CAPACITY

    Secretary Hammack, the Army's estimate of excess capacity 
across the enterprise is 160 million square feet, at the 
incidence of 490,000 active component and 170 million square 
feet at an [incidence] of 450,000.
    To deal with this problem, the Army Management Action Group 
approved a strategy of right-sizing within installations to 
reduce costs. First, can you tell me how much it costs to 
maintain this infrastructure? And next, can you explain what 
the Army Management Action Group has done to control costs? How 
bad would your capacity problem get if the Army is forced to go 
below 450,000?
    And for Secretary Ballentine, the Air Force's estimate of 
excess capacity is roughly 30 percent while [inaudible] 
manpower has steadily decreased. So the Air Force has drawn 
down aircraft and personnel without reducing infrastructure. 
How much does it cost the Air Force to maintain excess 
capacity? Has the Air Force taken steps, like the Army, to 
address it?
    Ms. Hammack. Thank you, Representative Bishop.
    Mr. Bishop. And if you would abbreviate your answers. I 
know we would like to make the vote.
    Ms. Hammack. OK. Well, the strategy for right-sizing within 
the installation means that we consolidate personnel into the 
best-quality buildings and we are able to shut down those 
buildings, which means you modify the temperature controls, you 
don't have lights that you have to manage, and you put them 
pretty much in cold storage.
    We have identified that there is approximately 40 million 
square feet that we could put into cold storage through those 
efforts.
    Since it costs us about $3 a square foot to maintain 
buildings that are underutilized, we think that 40 million 
square feet could be about $140 million annual savings.
    Now, it is going to take us a while to consolidate into the 
best buildings. We have issued an executive order for every 
garrison commander and senior mission commander to develop an 
installation reduction plan addressing excess within their 
installations.
    Mr. Bishop. Thank you.
    Ms. Ballentine.
    Ms. Ballentine. Thank you. So it is slightly different for 
the Air Force. Since the early 1990s at the beginning of the 
Gulf War, we have reduced our aircraft force structure by about 
60 percent in terms of combat-coded fighter squadrons and our 
personnel by about 30 percent. Our infrastructure base closures 
have only been about 15 percent.
    So when we look at consolidating, it is not just a matter 
of consolidating people into buildings, a lot of our excess 
infrastructure has to do with iron, with actual aircraft, so we 
have extra parking spaces, excess hangar space, excess 
maintenance space.
    And really, the only way that we can get at that excess is 
to consolidate by closing bases entirely. And that is really 
where the big dollar savings comes.
    Now, that said, we have very robust programs in energy 
savings, in enhanced-use leases to get after some of the 
underutilized real estate on our bases, through our community 
partnerships programs, and those programs are paying very good 
dividends for us, but just nowhere to the tune of what we can 
do if we can actually close the base.
    Mr. Bishop. Thank you very much.
    Mr. Chairman, thank you.
    Mr. Dent. What we will do is this subcommittee meeting with 
be in recess to the call of the Chair, which should probably be 
about half-an-hour. We are in recess. We have got 2:40 to go.
    [Recess.]
    Mr. Dent. Thank you all for returning. I would like to 
bring to order this meeting on the Subcommittee on Military 
Construction and Veterans Affairs.
    For a variety of reasons, this is a crazy morning, Mr. 
Bishop will not be able to return, Ms. Lee will be here until 
five of and then that is when the hearing will have to end.
    So with that, I would like to recognize the gentlelady from 
California, Ms. Lee, for 5 minutes.
    Ms. Lee. Thank you very much.
    Thank you all again for being here and for your service.
    Wanted to mention a couple of things. First of all, I would 
just like to note that during my tenure with my former boss, 
former chair of the Armed Services Committee, Ron Dellums, we 
went through a BRAC process. Then I actually went to the 
legislature and I, along with Congressman Farr, we were the 
point people on BRAC from the state of California.
    And we went through in my district, I think it was five 
bases that were closed. And so as part of the transition 
process, we worked to ensure that the local community affected 
by BRAC had the support that it needed to adjust to the closing 
of the bases.
    But we still have a lot of work to do. And this goes back 
years. So let me just ask you a couple of questions.
    First of all, where Alameda Point is, the Naval Air 
Station, we took title to about 1,400 acres of land and water 
from the Navy. This was in June of 2013, even though the base 
was closed 10 to 15 years before. The V.A. took about 624 acres 
of land from the Navy in November 2014 for the construction of 
the new V.A. outpatient clinic and cemetery. A good example of 
how properly re-purposed, former military installations can 
really set a standard for the rest of the country.

                       ENVIRONMENTAL REMEDIATION

    I know the Navy has been conducting environmental 
remediation efforts in Alameda at Alameda Point, including the 
removal of toxic substances from below the ground and creating 
grassland and wetlands.
    So while the department is investing more than $1 billion, 
I guess it is in, well, in fiscal 2017 across the agencies with 
regard to environmental compliance, this number represents a 
2.3 percent decrease in funding from 2016 levels.
    So I wanted to hear about the Navy's next steps as it 
relates to environmental remediation throughout the country and 
specifically at Alameda Point, and your long-term environmental 
sustainability and stewardship efforts.
    Because with this kind of a decrease, of course, I know all 
of us are a bit concerned about more delays.
    Mr. McGinn. Thank you, Representative Lee. We are taking 
great steps, continuing to take great steps. You mentioned the 
closure of those five major bases in the Bay Area.
    Since 1991, we have had five major BRAC actions that the 
Navy has participated in. Ninety-four percent of the total 
acreage has been returned or turned over for economic 
development activities, including those that you mentioned at 
Alameda.
    We anticipate that in another six years, the remaining 
11,600 acres will be turned over across the country.
    Specifically for our environmental remediation program, we 
have a prioritization matrix that decides where the greatest 
issues are and where can we put the money for remediation that 
will accelerate, to the maximum extent possible, the turnover 
of that land to economic development activities.
    So I can provide you more of a detailed response 
specifically on Alameda or across our whole environmental 
remediation related to the BRAC program.
    [The information follows:]

    The Navy continues to make great strides in its environmental 
remediation efforts at Alameda Point. Our next step in this process 
will be the Phase II transfer under the Economic Development Conveyance 
of approximately 183 acres to the City of Alameda targeted to occur 
this year, which will put the former base at 89% transferred. The 
remaining 11% (304 acres) requires additional remediation and will be 
transferred over the next 3 years. We have kept the pace of our 
environmental remediation at Alameda Point throughout austere budget 
years.
    For NAS Alameda, the FY16 budget is $15.1M, the FYI 7 budget 
request is for $15.3M. The estimated environmental cost to complete for 
FY18 and beyond is $28.7M, which includes long term operations and 
monitoring of remedies in place. It is currently anticipated that this 
funding profile will allow us to transfer 100% of the former base by 
2020.
    The total BRAC Program environmental cost to complete is approx. 
$1.1 billion for FY 17 and beyond.

    Ms. Lee. OK, thank you. I would like to get both because 
naturally with a 2.3 percent decrease all of us are quite 
concerned.
    Mr. McGinn. Right.
    Ms. Lee. Could I ask one more question for our ranking 
member?
    Let me ask with regard to the budget driving the request 
for a new round of BRAC. Is this the drawdown of forces? Is 
that the reason for that? And how complicated is this new BRAC 
process going to be?
    This budget calls for an entire new round. So what is 
really driving that?

                       REQUIREMENT FOR BRAC ROUND

    Mr. Potochney. OK. So the drawdown in forces makes the 
requirement for BRAC even more important. Less forces means 
less bases are required to house them and for them to operate 
from.
    But the requirement for us, and I call it a requirement for 
us to devote the maximum resources to readiness and 
sustainability, and that includes our built infrastructure, is 
critical. And so to spend money on facilities that we don't 
need really doesn't make any sense to any of us, and I believe 
to Congress as well.
    The BRAC process is the only way to get at it in a 
holistic, fair, transparent way.
    Ms. Lee. And so how about the European infrastructure 
consolidation? Did that function as the training effort BRAC 
and the U.S. service standard?
    Mr. Potochney. Yes, ma'am, that is a good way to put it. We 
did model it after the BRAC process. You know, the BRAC 
process, we have a statute, but we used criteria and used 
basically the same kind of analysis, the same kind of decision 
process, and we did that on purpose, both as BRAC practices, as 
you mentioned, training, but also because it is a good way to 
look at your infrastructure.
    Ms. Lee. OK, thank you very much.
    Thank you, Mr. Chairman.
    Mr. Dent. Thank you.
    I would like to at this time recognize the gentleman from 
Ohio, Mr. Joyce, for 5 minutes.

                    BRAC PROCESS--GUARD AND RESERVE

    Mr. Joyce. Thank you very much, Mr. Chairman.
    And I would like to start off with Ms. Hammack.
    There has been a lot of discussion about the BRAC process. 
There are many of us who don't have active bases or facilities 
in our district, but we do have National Guard and Reserve 
facilities. How would they be impacted by BRAC?
    Ms. Hammack. Thank you for the question, Representative 
Joyce.
    Mr. Joyce. And I am sorry if somebody asked that before.
    Ms. Hammack. No, that question has not been asked. In BRAC 
2005, the Reserve component, both Guard and Army Reserve, 
participated in BRAC for consolidation benefits. In some of our 
best ones, you might have two Guard units, one Reserve unit, 
and perhaps Fish and Wildlife Service that merged together into 
one federal facility with Guard and Reserve units utilizing the 
facility on weekends, and Fish and Wildlife using it on 
weekdays.
    What it meant is the total federal cost of operations went 
down. It also meant that each of the divisions had more 
capabilities, they had better training, classrooms, they had 
better break rooms, they had better meeting rooms and gathering 
rooms, they had better parking facilities. So it was a net 
benefit to all.
    Based upon the experience in BRAC 2005, the Guard and 
Reserve are very eager for the next round of BRAC to help them 
benefit by adjusting to today's demographics from the 
demographics of the 1940s and 1950s where many of them were 
stood up and their facilities were built.
    The Guard and Reserve would benefit from consolidation. The 
Guard and Reserve would benefit from facilities built to 
today's standards, to today's mission requirements, to 
accommodate the current missions that they have, which are very 
different from some of the past.
    Mr. Joyce. Thank you. Ms. Hammack, in your written 
testimony, you state that in response to risks posed to our 
Nation's vulnerable energy grid, the Army is improving the 
resiliency of installations through the use of on-base 
renewable sources of energy.
    You indicate that resilient Army installations are those 
that can withstand security threats, such as power 
interruptions, cyberattacks, or natural disasters.
    The style of warfare obviously is changing. On top of 
needing to maintain a strong physical military presence, there 
are new challenges brought on by this threat of cyber or energy 
attacks.
    Can you tell us more about how these on-base renewable 
energy sources will enhance the resiliency of Army 
installations?

                        RENEWABLE ENERGY SYSTEMS

    Ms. Hammack. Absolutely. We are partnering with the private 
sector and leveraging private sector capital to install 
renewable energy systems on Army bases so that should there be 
a disruption with the national grid the base is still able to 
operate.
    In the last calendar year, we demonstrated that at Fort 
Drum in upstate New York. Fort Drum was a base that was 
impacted by ice storms and weather events that took down the 
national grid. The base was out of power for over a week.
    During that time, they tried to run on backup generators, 
but then fuel was running low.
    The private sector came in and built a biomass facility 
that is utilizing clippings from the timber industry and from 
forest thinning to power the facility. They have 3 months' 
worth of fuel on or very close to the base. This winter, we 
demonstrated that they are able to disconnect from the grid and 
still power all services on base.
    That is a resilient base that is there to meet mission and 
deployment requirements of the active duty. It is there also to 
serve the community that is looking for a light in the darkness 
when the grid might go down.
    So that is what we mean by resilient bases with renewable 
energy.
    Mr. Joyce. That sounds like a great thing. How about the 
cyberthreat problems, what have you done to address those?
    Ms. Hammack. We are working hard to address the 
cyberthreat. Certainly, when you are able to disconnect and 
isolate, that makes your grid less vulnerable.
    Certainly, the cyberthreat is constantly changing. That is 
something that we are working on very closely with the cyber 
community to try and enhance our resiliency by hardening our 
systems.
    Mr. Joyce. Great, thank you.
    I have no further questions at this time, Mr. Chairman.
    Mr. Dent. Thank you, Mr. Joyce.
    At this time I would like recognize the gentlelady from 
Alabama, Mrs. Roby, for 5 minutes.

                    BLACK MOLD AT AL UDEID AIR BASE

    Mrs. Roby. Thank you, Chairman.
    And thank you all for being here today. I have just a few 
issues that I want to address.
    Secretary Ballentine, I want to talk about mold for a 
minute. I have seen multiple reports recently regarding the 
presence of the black mold at Al Udeid.
    Recently I received a text message from a friend of mine 
who is actually there right now. He said these reports--they 
are not made up--they are real and it is really bad. And it is 
not just in the bathroom facilities. There is mold in the 
curtains. It is really just gross.
    And I know that our National Guard members have been 
exposed to this unhealthy environment.
    I have read the internal document that talks about the 
stages of how this is going to be addressed. But clearly, it is 
not being addressed quickly enough.
    So I wanted to hear from you directly about your thoughts 
on this. And what can I tell my friend who is there? He is only 
there for a short time. As he stated in his text message, he is 
more concerned about those that are there for the duration. And 
so it is very concerning.
    Ms. Ballentine. Thank you, I appreciate it.
    I just came back actually from the AOR myself this fall and 
we did talk some about the mold issue as well as a range of 
challenges that we face with expeditionary facilities that 
really have outlived their life.
    Our Chief of Staff and Secretary have asked United States 
Air Force Central Command (AFCENT) to continue and step up the 
pace of the program to maintain. We have changed the custodial 
contract there and that has already started to show some 
benefits, increased government oversight of the contract, so to 
maintain is step one.
    Then replace, repair and actually start to move people into 
more permanent facilities. So this summer, 20 permanent 
facilities will be completed which will be able to house 2,500 
people. Making that transition is a very important piece 
because these expeditionary style of latrines and lodging in 
this type of environment with the heat and the humidity, you 
don't tend to think of Al Udeid as a humid type of place. But 
being so close to the water, it tends to be very humid.
    Heat, humidity and expeditionary facilities tends to make 
mold a pernicious problem.

                AIR TRAFFIC CONTROL TOWER AT MAXWELL AFB

    Mrs. Roby. Sure. Well, I wanted to bring attention to it 
today, and I thought it was appropriate. And my hope is that 
you will continue to provide us any updates as it relates to 
those efforts. And I would appreciate that.
    I want to move real quickly to the air tower at Maxwell 
Gunter Air Force Base. It is the home of Air University and 
other very important missions.
    And we not only have the 908th there, but also a lot of 
VIPs fly into Maxwell on a routine basis.
    Now, I have had the opportunity twice to climb up in this 
tower. And since we are offering invitations, I am sure that 
the leadership there would love to have you come climb up in 
the tower. It is a frightening experience, to say the least. 
And when you get up there, you can't even see one of the 
runways. It is obstructed by a building.
    What is also fascinating about this tower is the escape 
mechanism in case of a fire. It is a cable that runs to the 
roof of a nearby building and basically a tarp of sorts that 
you would put your body in and glide to the roof of the 
adjacent building.
    So obviously the tower is very antiquated, and these are 
serious problems with not being able to see the runway.
    So we had language in the last MILCON VA appropriations 
bill that addresses this specifically and encourages the Air 
Force. These towers are very important national security assets 
and the Air Force should maintain them in a manner that will 
ensure their role of protecting the U.S. national security 
interests.
    So I would love to hear an update about where we are with 
this tower and others that need to be replaced.
    Ms. Ballentine. Yes, ma'am. And I think you just gave a 
perfect example as an answer to Representative Jolly's question 
earlier about can we describe some of the risk that comes with 
these reduced budgets, and that is a perfect example.
    The good news on that particular tower is it is in the 
Future Years Defense Program (FYDP) right now, it is in the 
fiscal year 2019 program. And we do have a range of existing 
air traffic control towers in our list of projects that really 
need to happen.
    Mrs. Roby. OK. Well, please, again, keep me posted about 
where we stand on this tower. And if you are ever down our way, 
let me know and I will make sure you get to climb up the tower. 
[Laughter.]
    Ms. Hammack. Thank you, I will.
    Mrs. Roby. OK.
    Thank you, Chairman. I yield back.
    Mr. Dent. Thank you, Mrs. Roby.
    I would like to recognize Ms. Lee. She has a few questions.
    Ms. Lee. Thank you, Mr. Chairman.
    Let me ask you, Ms. Hammack, with regard to the Oakland 
Army Base Remediation Project. Our office has been receiving 
periodic updates. The remediation contract, it was awarded to 
Engineering Remediation Resources Group.
    And the tasks related to the cleanup, I want to know if 
they are ahead of schedule, on schedule, any updates on this 
project because again, it has taken a long time. And just, what 
efforts are you taking with regard to ensuring environmental 
sustainability at the Oakland Army Base.

                  MINORITY AND WOMEN-OWNED BUSINESSES

    And then for all of our witnesses here, and you don't have 
to respond today, but if we can get the information with regard 
to the participation of minority and women-owned contractors, 
how many of these businesses do your branches work with?
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         
    
    
    
    And I would like to see if we can get that information 
disaggregated for this committee, because you have pretty 
significant budgets with contracting opportunities, and I want 
to make sure that those opportunities are going to small 
businesses, minority and women-owned businesses as required. 
Thank you.

                     OAKLAND ARMY BASE BRAC CLEANUP

    Ms. Hammack. Thank you, Representative Lee. Certainly, the 
Oakland Army Base, the work there is progressing. We anticipate 
that the majority of the cleanup will be done in June of this 
year. After that, the transfer really depends upon the state of 
California and their review of the work that was done and their 
processing.
    The work is on target, it is on schedule. We hope that it 
will be able to be transferred within the calendar year; if 
not, early next.
    Ms. Lee. OK, thank you very much.
    Thank you, Mr. Chairman.
    And again, these bases closed, gosh, way early 1990s, early 
to mid 1990s, and we still are on the process of remediation, 
cleanup. And to this point, we still haven't been able to move 
forward to fully recover and redevelop the bases.
    Ms. Hammack. If I could comment on that. In the prior BRAC 
rounds, there had not been an effort by the services to clean 
up bases while those bases were operational, very little 
effort.
    What is very reassuring is that the bases closed in BRAC 
2005 had very little environmental cleanup because we started 
getting after it while the base was operational.
    So really, it is some of the older BRAC rounds that have 
the biggest challenges for cleanup.
    Ms. Lee. Thank you. Lessons learned.
    Thank you, Mr. Chairman.
    Thank you, ranking member.
    Mr. Dent. Thank you, Ms. Lee.
    At this time I would like to recognize the gentleman from 
Nebraska, Mr. Fortenberry, the vice chair of the subcommittee, 
for 5 minutes.

                      BASE REALIGNMENT AND CLOSURE

    Mr. Fortenberry. Thank you, Mr. Chairman.
    Good morning, everyone. Pleasure to see you all.
    You may remember last year when you were here I held up a 
little sign.
    And Secretary Ballentine, I was reading a little bit of 
your bio here. You have a degree in psychology. So what would 
you rather hear, base realignment and closure or military 
installation savings commission? What is more inviting, what is 
more attractive?
    I am trying to get everyone to shift the rhetorical 
construct of this whole endeavor, which most of us anyway agree 
with.
    When you testify that we have got 30 percent excess 
inventory in the Air Force, we are asking you to do more with 
less, and yet carry forward older, antiquated things that are 
no longer viable, that is not fair to you. It is not fair to 
the taxpayer either.
    However, because communities have so integrated and also 
been so supportive of the various military installations around 
the country, we look for off ramps when it is necessary because 
of our national defense needs, but also to assist the community 
in that transition. Starting with language that is less ominous 
and is more partnering and inviting would be just a suggestion.
    I plead with you to do this, because this is, I think, a 
better way to endure the psychological trauma. Now, I am not a 
trained psychologist.
    Mr. Dent. Call Frank Luntz. [Laughter.]
    Mr. Fortenberry. That is true.
    In that regard, it is a serious comment in the sense that I 
want us to try to continue to partner constructively in this 
regard so that we are assisting you with this process, that it 
is, yes, at certain times a painful and difficult process, but 
nonetheless can be creatively achieved through community input 
as our good friend Congressman Farr has spearheaded and 
continues to talk about the Monterrey model whereby certain 
communities who are situated can take on certain services that 
are not integral to your mission, expanding on that.
    And then when there is simply excess inventory, carving it 
off or out when possible, versus you get to close and you get 
to stay open, again, is a better framework, I think, in 
pursuing this and it would maybe get us there faster.

                      RUNWAY REPAIR AT OFFUTT AFB

    One quick question for you, Madam Secretary, is the issue 
of the Offutt Air Force runway. So we have a critical piece of 
national security infrastructure with Strategic Command and 
Offutt located in a symbiotic relationship. We have a runway 
that air crews have to literally walk down to make sure there 
is no loose piece of concrete that could damage one of your 
planes.
    DoD is committed to doing this project. It is not a matter 
of if, it is a matter of when. At the same time, I and others 
have the obligation to continue to have reasoned oversight of 
this and, again, to partner with you.
    So in that regard, we have put together a working task 
force of our delegation. We meet regularly with the governor as 
well to look at the issues of seamless transition for you.
    For instance, the Guard base in Lincoln, 50 miles down the 
road, has enough capacity to support housing of your operations 
in the meanwhile. There is some consideration that the Omaha 
airport, it is called Eppley, which is in very close proximity, 
could be some kind of staging in case of an emergency.
    All of this is to say that the broader project of a full 
replacement would be the ideal, but I recognize there are a lot 
of variables that go into that consideration. It is not just 
money, but also the downtime.
    So can you comment on both of these dynamics, of changing 
the way in which we are rhetorically constructing this need to 
reduce your excess inventory, assisting communities in the 
transition and the specifics of Offutt?
    Ms. Ballentine. Sure. And I think you said it all very 
well.
    So let us take the first one first. From my perspective, 
absolutely, we ought to be talking about partnering with 
communities, we ought to be looking at opportunities for 
community benefit. Our community partnership program has been 
very successful, our enhanced-use lease program has been very 
successful in looking for ways to leverage underutilized real 
estate.
    Now, that said, we still absolutely are going to need some 
closures. It has really got to be both/and, from my 
perspective, not either/or. So there is a lot we can do to 
partner with communities, leverage the Monterrey model, 
leverage what we have learned through our community 
partnerships programs, leverage enhanced-use leases. And at the 
end of the day, we simply are going to have to close some bases 
to really get those dollar savings.
    So it is a both/and, from my perspective, speaking of 
language, not an either/or.
    On the runway, you are absolutely right, and you said it 
exactly right, that it is not if, it is a matter of when. We 
are looking at options now and really balancing cost with 
downtime, how long can the mission withstand the runway being 
closed.
    But I really appreciate your offer of partnership and the 
pulling together of your commission to help us work through 
those issues. So I will ensure that our folks are well-
connected with that.
    Mr. Fortenberry. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Dent. Thank you, Mr. Fortenberry.
    I guess we will move into the second round of questioning. 
And I will yield to Mr. Bishop and then I will come back to 
myself, because I know he had an abbreviated first round.

                    MARINE CORPS RELOCATION TO GUAM

    So, Mr. Bishop, you are recognized.
    Mr. Bishop. Thank you very much, Mr. Chairman.
    I would like to touch on the Asia Pacific strategy and the 
Guam realignment of the marines, Mr. McGinn.
    Secretary, can you give me an update on the Department's 
efforts to pivot to the Asia Pacific region in terms of 
facilities, specifically in Guam and Japan? I know there have 
been numerous issues with the local politicians and the general 
public in that area.
    In fact, they have brought that conversation to Washington 
to my office several times. I would like to know, as we are 
seeing some concrete movement on the project, what have been 
some of the issues that have surfaced, and have they been 
adequately dealt with?
    Mr. McGinn. Thank you, Mr. Bishop. Two parts, basically the 
relocation of marines from Okinawa to Guam is proceeding as 
planned. We have started construction activities and these are 
going well.
    As you may know, the initial operational capability for 
those marines relocated to Guam from Okinawa is 2022. And they 
are going to be finished and achieve final operational 
capability in 2026.
    Separate from that, but related, is the replacement of 
Futenma Marine Corps Air Station on Okinawa. And the plan that 
has been strongly supported by the government of Japan has been 
to relocate that function, that operation up to Camp Schwab at 
the northern part of Okinawa.
    There has been a lot of concern expressed by the governor 
of Okinawa and some of the citizens. However, the project being 
managed by the government of Japan is continuing.
    I would describe it as being in phase one, mostly planning 
and measurement and some early construction in the area where 
the intent is to have that smaller runway located.
    But it is an issue that we are keenly aware of. We are 
working very closely with folks in Japan. Our III MEF commander 
and his staff are engaged. We are trying to transfer property 
from control by the Marine Corps on our bases that are located 
throughout Okinawa to the government of Okinawa as quickly as 
we can, consistent with the mission in that very active area.
    Mr. Bishop. Thank you. Another thing I am concerned about 
is the lack of quality-of-life projects that we are seeing 
under the constrained budgets. What efforts are you taking to 
ensure that when the marines move from Japan to Guam that these 
types of facilities will be in place as they move to the 
island?
    Mr. McGinn. There is a lot of close coordination by Fleet 
Marine Forces Pacific, General Toolan and his staff, as well as 
with the Pacific commander and his staff, Admiral Harris, to 
make sure that those projects are in fact lined up and ready to 
support the full Marine training mission when they do get to 
Guam.
    This involves everything from construction of a cantonment 
area, adding housing to Andersen Air Force Base where those 
marine families will be housed, the provision for firing ranges 
in the northern part of Guam, and a continuing effort to make 
sure that the construction timelines match the plan to actually 
move those marine units.

                       SHORE HOUSING FOR SAILORS

    Mr. Bishop. Changing gears a bit, Master Chief Stevens told 
us last week that he was extremely concerned regarding the 
state of shore housing for sailors. Can you explain the current 
state of shore housing for sailors?
    Mr. McGinn. We have, as you know, a public/private venture 
that is managing our housing. And the level of satisfaction 
overall, there are always exceptions, but overall is extremely 
high.
    I have talked personally with Master Chief Stevens and I 
think the primary concern that he is hearing from sailors in 
his travels is a potential for reduction of the BAH. If that is 
carried through, and it is proposed that it be a 5 percent 
reduction, that would result in an overall $3.5 billion 
reduction in funding from BAH sources to the private 
contractors over the full life of the contracts that are 
currently in place.
    So we are looking at this very, very closely about how best 
to manage it. There are ongoing discussions with the 
contractors.
    One thing we want to make sure we avoid is taking the money 
out of the pockets of sailors and marines and their families 
and at the same time to make sure that there isn't a decrease 
in the quality of the housing that they are housed in, from the 
contractor perspective.
    Mr. Dent. I would like to recognize myself for 5 minutes.

                       OKINAWA FACILITIES STATUS

    I guess I will start with Mr. McGinn. I am going to talk a 
little bit about Okinawa.
    What is the current status in negotiations with the 
government of Japan and other countries, such as Australia, 
Singapore and the Philippines? And can you give the committee 
an update on the progress that has been made to date there?
    And then I also want to hear what you think, too, about, 
you know, what, in your view, constitutes an acceptable 
conclusion to the Futenma replacement facility issue.
    Mr. McGinn. Given the complexity of those ongoing 
negotiations and all of the aspects, I respectfully request to 
take that question for the record and provide you a more 
comprehensive answer.

    Our long-standing agreement with the Government of Japan (GOJ) 
remains unchanged. The Futenma Replacement Facility (FRF) at Camp 
Schwab/Henoko is the only option for moving the Marine Corps air wing 
out of Marine Corps Air Station (MCAS) Futenma. We will relocate from 
and return MCAS Futenma once the FRF is complete and the facility is 
fully operational. The Department of Defense refrains from commenting 
on the legal process of another country to include the recent court-
mediated settlement between the Okinawa Prefectural Government and the 
GOJ regarding FRF construction.
    On-going Department of Defense negotiations with Australia and the 
Philippines will help to modernize these alliances and develop a more 
geographically distributed, operationally resilient, and politically 
sustainable regional defense posture. This ongoing process does not 
preclude continuing to train alongside these countries' militaries. The 
marines have successfully completed a total of four rotations to 
Australia and the fifth rotation is on track for April 2016. This 
year's Balikatan exercise in the Philippines will see more complex 
scenarios than ever. In Singapore, the government continues to make 
progress on constructing the required facilities to support the 
implementation of our agreement to forward deploy up to four Littoral 
Combat Ships in Singapore by 2017.

    It lies primarily in the responsibility of the folks in 
policy at the Office of the Secretary of Defense as well as in 
our own Navy and Marine Corps policy shops. But I will consult 
with them and make sure we get you a good answer on that.
    Specifically to the Futenma replacement, the construction 
activities are ongoing, despite concerns by the governor of 
Okinawa who I know has spoken with you. And we continue to make 
sure that whenever there is a possible interaction that can 
have a positive outcome related to the transfer of land from 
other bases back to Okinawa, we are doing that, as well as 
close coordination with the central government in Tokyo to make 
sure that the project is proceeding apace, considering the 
difference of opinion by the governor.

                  FORCE STRUCTURE REDUCTIONS AND BRAC

    Mr. Dent. Let me move to Ms. Hammack.
    By the end of fiscal year 2017, the Army is reducing the 
active component force structure to 450,000, I believe. Can you 
describe the impact of these force structure reductions and 
what the impact will be across the Army on infrastructure 
requirements?
    Ms. Hammack. Thank you, Chairman Dent, for that question. 
One of the challenges is that as we have reduced force 
structure, it creates holes on bases. On many of the bases 
where they might have four brigade combat teams, they go down 
to three, or if they have three, they go down to two. That 
means there are empty barracks. That means there are empty 
company ops facilities.
    Mr. Dent. More need for BRAC.
    Ms. Hammack. That means there is more need for a BRAC or a 
realignment and consolidation.
    When there is that kind of capability on one of our major 
installations, that means we can move some smaller missions 
into that place and shut down an entire facility.
    As Secretary Ballentine said so well, that is where the 
real cost savings are.
    Mr. Dent. Yes. Also, can you give some examples of 
installations or states that have the greatest challenges as 
the Army draws down the force? And you know, beginning in what 
fiscal year will the committee see military construction 
requirements for this decision, if any that are needed?
    Ms. Hammack. As the company draws down the force, it 
certainly reduces the need for military construction. That is 
why you see our budget right now; less of it is focused on 
replacing existing buildings, and more of it is focused on 
COCOM requirements and new missions.
    The challenge is, though, that the existing buildings 
become of poorer quality. In the Army, we are seeing an 
increase in the number of poor and failing buildings every 
year, as we do not have the funding to sustain the facilities 
and as we are questioning more what the size of the Army is 
going to be in the future.

      EUROPEAN INFRASTRUCTURE CONSOLIDATION IN THE UNITED KINGDOM

    Mr. Dent. I will quickly move to Ms. Ballentine.
    The European infrastructure consolidation study produced 
eight consolidation opportunities for the Air Force. Can you 
walk the committee through the consolidation in the United 
Kingdom and give us an estimate of the costs associated with 
the consolidation and potential savings that will be achieved?
    So I just visited the U.K. and Croughton, Molesworth, and 
got a sense of some of the issues that you are working on. I 
would like the committee to learn a little more about it.
    Ms. Ballentine. I would be happy to. And I will give you a 
little bit of an overview here. And if you would like more 
detail, I am happy to provide that for the record as well.
    So total costs across the entire continent are about $1.1 
billion. We anticipate around $275 to $300 million savings per 
year.
    In the U.K. specifically, we have got a number of actions 
that we are taking. So divesting from Royal Air Force (RAF) 
Alconbury and (RAF) Molesworth, those should save us about $75 
million a year, divesting from (RAF) Mildenhall, which is the 
big muscle movement, I would say, as Mr. Potochney identified. 
And that is really that we are moving CV-22s and C-130Js to 
Spangdahlem Air Base, Germany and moving KC-135 tankers to 
Ramstein Air Base, Germany.
    So all of those activities have begun. We do have some of 
the fiscal year 2017 budget going towards executing those 
activities.
    I will actually be visiting myself later on this spring and 
will be able to get my eyes on those activities. But if you 
would like further details on that, I am happy to provide it 
for the record.
    [The information follows:]

    The European Infrastructure Consolidation (EIC) will enable 
the Air Force to fully divest RAF Mildenhall at an estimated 
cost of $572 million and estimated annual recurring savings of 
$128 million. Divestitures of RAF Alconbury and RAF Molesworth, 
United Kingdom will cost an estimated $370 million and save an 
estimated $74 million per year. Streamlining the level of 
support at Lajes Air Field, Azores cost approximately $68 
million and will save an estimated $35 million each year. 
Streamlining the support contract at Moron Air Base, Spain cost 
an estimated $3 million and will save the Air Force 
approximately $4 million per year. Consolidation of European 
Data Centers will cost an estimated $60 million and generate an 
estimated $40 million per year. Through EIC, the Air Force also 
returned four minor Air Force sites to their host nations 
(Karup munitions storage, Denmark, RAF Mildenhall ammunition 
storage and RAF Feltwell housing, United Kingdom; and 
Siegenburg Range, Germany) at a total cost of less than $1 
million and resulting in an estimated savings of less than $1 
million per year.

    Mr. Dent. Thank you.
    So let me quickly ask one more question, and then I will go 
right back to the ranking member.
    I would like to also shift to Guam and the Mariana Islands. 
The 2017 budget includes about $81 million for Guam Joint 
Region Marianas Andersen. Are the mission requirements for 
Joint Region Marianas finalized and budgeted for in the out 
years? And if not, has the Air Force included a wedge of 
funding in the future years' defense program to account for 
future military construction projects?
    Ms. Ballentine. So we do spend a good portion of our MILCON 
on combatant commander requirements. And the shift to the 
Pacific is an important piece of that. The total in our 2017 
budget for PACOM is about $132 million. A good portion of that 
is going to Guam. We are hardening some facilities, building 
some C4I, which is command, control, communications, computers 
and a number of other projects.
    And we do, of course, look across the FYDP in responding to 
our combatant commanders' requests.
    Mr. Dent. Mr. Bishop, we recognize you for 5 minutes.
    Mr. Bishop. Thank you very much.

                       OPTIMIZING INFRASTRUCTURE

    This will relate to instruments and equipment drawdown.
    Secretary Hammack, with the ongoing drawdown, can you 
describe for the committee what your biggest challenges are and 
how they will affect the Army's construction program?
    Ms. Hammack. Well, the biggest challenges in drawdown is 
that they create empty spaces. So we are still maintaining 
money to operate a base that should be a hundred percent full 
and it might be 75 percent full or 50 percent full. Our base 
operating costs are the same, yet we have reduced the military 
manpower.
    When we consolidate and we can optimize our infrastructure, 
we can reduce our costs and then focus the funding on 
warfighter needs. The biggest concern as we are reducing end 
strength is that we would like to manage our real estate in 
response to that.
    The Army has real estate left over from World War II, when 
we were a force of 8.3 million, and now we are down to 450,000. 
We never got rid of all of that excess infrastructure. We are 
whittling away at it a little bit every year.
    As Mr. Potochney said, we have never reduced our 
infrastructure down to the 7 percent or even the 10 percent at 
which we probably should operate.
    For the Army, in each round, we are taking out anywhere 
from 4 to 7 percent with an average of 5 percent each BRAC 
round. That helps us, but that doesn't get us where we need to 
be.
    Technology has given us capabilities in the industrial base 
and in warfighting where we have simulators that help our 
soldiers train better. We have consolidated with technologies, 
but we have not consolidated our footprint.
    Mr. Bishop. I see. Thank you.
    Secretary Ballentine, what has been your biggest challenge 
with facilities as it pertains to the reduction of aircraft?
    Ms. Ballentine. Well, likewise, reduction of aircraft and 
squadrons creates holes on our parking pads and in our hangars 
and the like. So what you see across the Air Force is our 
squadron sizes are coming down. So rather than a squadron being 
24 aircraft, you may see a squadron of 18 aircraft spread 
across more bases.
    So for each of those bases, you have got Security Forces 
that are protecting the bases, you have got gates that you have 
got to keep open, you have got to finance people and human 
resources people.
    So if we can consolidate those squadrons into fewer bases, 
you can draw down all of that excess cost that we are spreading 
across, we are sort of peanut butter-spreading, if you will, 
across our bases, not for optimal operational reasons, but 
simply to ensure that every base has a mission.
    Mr. Bishop. Where I come from, peanut butter-spreading is a 
good thing. [Laughter.]
    Ms. Ballentine. Likewise in my household.
    Mr. Bishop. Thank you.

            FACILITY CONDITIONS AND INSPECTION STANDARDIZED

    Mr. Dent. I just have one more question, and I will start 
with Mr. McGinn. But this will end up being for all of you.
    Mr. McGinn, in your statement you mention that the Navy has 
taken on an initiative to standardize the facility inspection 
and facility condition in the [next] process. Please try to 
explain to the committee how you are achieving your goal and 
whether or not other Services are following your lead. And I 
can let the other Services respond to that, but do you want to 
just talk about how you are doing in the Navy?
    Mr. McGinn. Yes, sir. Starting about a year-and-a-half ago, 
we took a look at how best to determine our facilities 
condition and to prioritize particular parts of those 
facilities.
    A simple example would be it is really important that the 
roof doesn't leak. So roofs are more important than appliances 
inside the building, walls, structure and decking. And we 
wanted to make sure that as we looked across our whole 
installation infrastructure that these priorities were being 
applied so that we categorized our allocation of sustainability 
funds into fixing the most critical aspects.
    This has been something that has been briefed to our 
service chiefs and their staffs and down through the chains of 
command. Everybody is very pleased with the fact that we are 
putting the money against the most critical projects.
    Mr. Dent. Anybody else want to bite on this one?
    Ms. Hammack.
    Ms. Hammack. Certainly. The Army Corps of Engineers did a 
great job developing a program called BUILDER which is the 
standardized inspection protocol. It is a means to categorize 
what the requirements, what the needs are in the building and, 
as Secretary McGinn said, what kind of quality there is in the 
facilities.
    The biggest challenge the Army is facing is finding the 
funds to have the people to inspect to that building standard. 
Although we are addressing a small percentage of buildings 
every year, it will take us quite some time to fully inspect 
and categorize all of our properties to that standard.
    Mr. Dent. Ms. Ballentine.
    Ms. Ballentine. So I would like to get with my experts and 
come back to you with the details. But I will say that, as you 
know, the Air Force has just recently stood up the Air Force 
Installation Mission Support Center. My two counterparts here 
have had centralized management of installation mission support 
for quite some time and the Air Force has launched this program 
in the last couple of years.
    And the real beauty and opportunity of this type of 
construct is that it allows us to take an enterprise-wide look 
at things like facilities so that we won't be just taking a 
look base by base by base, command by command by command, and 
not necessarily getting after, from an enterprise perspective, 
the most important mission-critical worst-first.
    So that is really the beauty of our new Installation 
Mission Support Center.
    [The information follows:]

    Our Air Force Civil Engineer Center is actively managing 
the Air Force-wide implementation of the Sustainment Management 
System (SMS), a suite of web-based software applications 
developed by the U.S. Army Corps of Engineers to help 
leadership, facility engineers, and technicians decide when, 
where, and how to best maintain civil engineer's built 
infrastructure. The facilities SMS module, BUILDER, has 
currently baselined 44% of the facility condition assessments 
for Air Force vertical structures. PAVER, the airfield and 
other pavements SMS module, has baselined the pavement criteria 
indexes (PCI) for 100% of our airfields and 48% of other 
pavements such as roads and parking lots. RAILER, the SMS 
module that captures the condition of our rail systems, has 
baselined the condition of 17% of USAF-owned railways. Finally, 
UTILITIES, the water, wastewater, electrical power, and natural 
gas SMS module, and FUELER, the fuel distribution system SMS 
module, are currently under development. The Air Force has the 
lead on the development of UTILITIES SMS and the initial 
release of this module is scheduled for the summer of 2017. We 
are currently using assessment tools within our geographic 
information systems to perform utility system condition 
assessments and have completed 51% to date. All of these 
efforts are focused on improving our asset management 
processes, complying with Executive Order 13327, and achieving 
the audit readiness requirements set forth in the Fiscal Year 
2010 National Defense Authorization Act by September 2017.

    Mr. Potochney. Sir, I could just add?
    Mr. Dent. Mr. Potochney.
    Mr. Potochney. If I could just add to that? What I think 
you just heard is we have some pretty good standards and we are 
working pretty hard at even making them better so that we can 
spend the money that you are providing to us against the 
facilities essentially that are worst-first. But we still have 
too many of them to be spending money on, and that is the 
current thing.
    So we are being good stewards of what we are getting here 
with a systematic approach. But the inventory of buildings that 
we are taking care of just is simply too much.
    Mr. Dent. Well, thank you, all. We appreciate all of you 
being here today and providing, you know, comprehensive 
testimony. And we may have some additional questions for the 
record. And I know there are some that you want to get back to 
us on, which is fine.
    And we have a vote, as we speak, and so timing is good.
    So again, I want to thank you all for joining us today. I 
hope that we will be moving to the markup on this MILCON V.A. 
bill the week of March 22nd, we hope. That is aspirational, I 
think, at this point, but that is the hope.
    So that said, the hearing is adjourned.
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]          
    
    
    
    
   
    
    
   
   
   
</pre></body></html>
